Office of Inspector General
U.S. General Services Administration




Semiannual Report
to the Congress
October 1, 2013 – March 31, 2014
Abbreviations
ARRA/Recovery Act   American Recovery and Reinvestment Act
ASAC                Assistant Special Agent in Charge
BPA                 Blanket Purchase Agreement
CFL                 Computers for Learning
CFO                 Chief Financial Officer
C.F.R.              Code of Federal Regulation
CID                 Criminal Investigation Command
CIO                 Chief Information Officer
CIGIE               Council of Inspectors General on Integrity and Efficiency
CO                  Contracting Officer
COTR                Contracting Officer’s Technical Representative
CSP                 Commercial Sales Practices
DCIS                Defense Criminal Investigative Service
DHS                 Department of Homeland Security
DOD                 Department of Defense
DOL                 Department of Labor
FAR                 Federal Acquisition Regulation
FAS                 Federal Acquisition Service
FBI                 Federal Bureau of Investigation
FISMA               Federal Information Security Management Act of 2002
FMFIA               Federal Managers’ Financial Integrity Act
FSS                 Federal Supply Schedule
FY                  fiscal year
GSA                 General Services Administration
IFF                 Industrial Funding Fee
IIP                 Indian Incentive Program
IPA                 independent public accounting firm
IRS                 Internal Revenue Service
IT                  Information Technology
MAS                 Multiple Award Schedule
MPP                 Mentor-Protégé Program
NCIS                Naval Criminal Investigative Service
NCR                 National Capital Region
NIAF                National Intergovernmental Audit Forum
OCFO                Office of the Chief Financial Officer
OCIO                Office of the Chief Information Officer
OIG                 Office of Inspector General
OMB                 Office of Management and Budget
PBS                 Public Buildings Service
P.L.                public law
R&A                 repairs & alterations
ROTC                Reserve Officers’ Training Corps
RWA                 Reimbursable Work Authorization
SAC                 Special Agent in Charge
SASP                State Agency for Surplus Property
SBA                 Small Business Administration
SES                 Senior Executive Service
TAA                 Trade Agreements Act
UCMJ                Uniform Code of Military Justice
USAO                U.S. Attorney’s Office
USC                 United States Code
VA                  Veterans Affairs
WPA                 Works Progress Administration
FOREWORD




Foreword
This marks the end of another successful semiannual reporting period for the Office
of Inspector General (OIG). The OIG continued its important work in detecting fraud
and mismanagement within the General Service Administration’s (GSA) programs and
operations.
   >> We issued 31 audit reports and made 245 referrals for criminal prosecution, civil
      litigation, administrative action, suspension, and debarment during this period
      (page 8).
   >> We recommended over $256 million in funds to be put to better use and in
      questioned costs this period (page 8).
   >> Civil settlements and court-ordered and investigative recoveries totaled over
      $35 million.
Our Office of Audits continued to identify deficiencies in GSA’s acquisition, information
technology, federal real property, and greening programs, and American Recovery
and Reinvestment Act (Recovery Act) projects. We issued a special report on
systemic procurement issues within GSA’s National Capital Region (page 19) and a
memorandum recommending that the Public Building Service (PBS) develop policies
and procedures for use of Section 412 exchange authorities (page 20).
Our Office of Investigations continued to focus on major procurement fraud, resulting in
an agreement by Axway, Inc., to pay $6.2 million to resolve False Claims Act allegations
that it knowingly provided GSA with defective pricing information (page 33). We also
conducted investigations into various bid-rigging and bribery schemes (pages 34 and 35).
Our Office of Audits, Office of Counsel, and Office of Investigations continued
its Federal Acquisition Regulation (FAR) disclosure work, resulting in $2 million in
settlements and recoveries to the government (page 30). The OIG also participated
in a number of interagency committees, reviewed numerous pieces of legislation and
proposed regulations, and continued our public and private sector outreach as part of
an effort to detect and deter procurement fraud (page 37).
This Semiannual Report marks the end of my tenure as Inspector General of GSA. It
has been my great honor to serve as Inspector General for nearly nine years. The time
has now come for me to seek new challenges and opportunities, and I am resigning
effective April 19, 2014. I am thankful for the opportunities to have worked closely
with Members of Congress, the Office of Management and Budget (OMB), and GSA
employees towards our common oversight goals.
I am especially grateful to my staff for their dedication to our mission, their hard work,
and their professionalism. I leave confident that the excellent work of my office will
continue under the outstanding leadership team of the Office of Inspector General, and
I look forward to their future accomplishments.




Brian D. Miller
Inspector General
April 18, 2014



OCTOBER 1, 2013 – MARCH 31, 2014                                                           iii
                                                                                  CONTENTS




Contents
ii	Abbreviations


iii	Foreword


2	    OIG Profile
      4	    OIG Organization Chart
      5	    OIG Offices and Key Officials


7	    Statistics on OIG Accomplishments
      8	    Summary of OIG Performance
      9	    Statistical Summary of OIG Accomplishments


15	   Management Challenges
      15	   Acquisition Programs
      20	   Improving the Management and Utilization of Federal Real Property
      21	   Information Technology
      23	   Financial Reporting
      25	   GSA’S Greening Initiative – Sustainable Environmental Stewardship
      26	   American Recovery and Reinvestment Act Impact
      30	   Other Initiatives


33	   Significant Investigations
      33	   Civil Settlements
      34	   Criminal Investigations


44	   Forensic Auditing, Evaluation, and Analysis

47	   Government-Wide Policy Activities

51	   Appendix I –
      Significant Audits from Prior Reports

55	   Appendix II –
      Audit Report Register

57	   Appendix III –
      OIG Reports over 12 Months Old, Final Agency Action Pending

64	   Appendix IV –
      OIG Reports Without Management Decision

67	   Appendix V –
      Peer Review Results

68	   Appendix VI –
      Reporting Requirements




iv                          OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
OIG Profile
                                                                                   OIG PROFILE




OIG Profile
Organization
The GSA OIG was established on October 1, 1978, as one of the original 12 OIGs
created by the Inspector General Act of 1978. The OIG’s five components work
together to perform the missions mandated by Congress.

The OIG provides nationwide coverage of GSA programs and activities. Our
components include:

     >> The Office of Audits, an evaluative organization staffed with auditors and analysts
        who provide comprehensive coverage of GSA operations through program,
        financial, regulatory, and system audits and assessment of internal controls. The
        office conducts attestation engagements in support of GSA contracting officials
        to carry out their procurement responsibilities and obtain the best value for federal
        customers and American taxpayers. The office also provides other services to
        assist management in evaluating and improving its programs.

     >> The Office of Administration, a professional support staff that provides: budget
        and financial management, contracting, facilities and support services, human
        resources, and information technology services.

     >> The Office of Counsel, an in-house legal staff that provides legal advice and
        assistance to all OIG components, represents the OIG in litigation arising out of or
        affecting OIG operations, and manages the OIG legislative and regulatory review.

     >> The Office of Forensic Auditing, Evaluation, and Analysis, a multidisciplinary
        organization that conducts analyses and evaluations of GSA programs and
        operations through management and programmatic reviews intended to provide
        insights into issues of concern to GSA, Congress, and the American public. In
        addition, the office formulates, directs, and coordinates the quality assurance
        function of the OIG and undertakes special projects and analyses as required by
        the Inspector General.

     >> The Office of Investigations, an investigative organization that conducts a
        nationwide program to prevent, detect, and investigate illegal or improper activities
        involving GSA programs, operations, and personnel.




2                          OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
OIG PROFILE




Office Locations
The OIG is headquartered in Washington, D.C., at GSA’s Central Office Building. Field
and regional offices are maintained in Atlanta, GA; Auburn, WA; Boston, MA; Chicago,
IL; Denver, CO; Fort Lauderdale, FL; Fort Worth, TX; Kansas City, MO; Laguna Niguel,
CA; New York, NY; Philadelphia, PA; Sacramento, CA; San Francisco, CA; and the
Washington, D.C., area.


Staffing and Budget
As of March 31, 2014, our on-board staffing level was 260 employees. The OIG’s
fiscal year (FY) 2014 budget is $65.6 million including $2 million in no-year money and
$600 thousand in reimbursable authority.




OCTOBER 1, 2013 – MARCH 31, 2014                                                         3
                                                                              OIG ORGANIZATION CHART




                            OIG Organization Chart
                                             INSPECTOR GENERAL
                                                 Brian D. Miller
                                          DEPUTY INSPECTOR GENERAL
                                               Robert C. Erickson



      OFFICE OF COUNSEL TO THE IG
                                                                           ASSOCIATE INSPECTOR GENERAL
              Richard Levi
                                                                                  Larry Lee Gregg
            Counsel to the IG


 OFFICE OF COMMUNICATIONS AND                                                  OFFICE OF FORENSIC AUDITING,
    CONGRESSIONAL AFFAIRS                                                       EVALUATION, AND ANALYSIS
                                                                                  Patricia Sheehan, Director



                                                                                  Executive Resources Staff/
                                                                                    Human Capital Officer




OFFICE OF INVESTIGATIONS                       OFFICE OF AUDITS                 OFFICE OF ADMINISTRATION
   Geoffrey Cherrington                       Theodore R. Stehney                   Stephanie Burgoyne
   AIG for Investigations                       AIG for Auditing                   AIG for Administration




      Investigations Operations              Audit Planning, Policy, and              Budget and Financial
               Division                           Operations Staff                    Management Office



                                                Administration and
     Internal Operations Division                                                      Contracting Office
                                                Data Systems Staff



        REGIONAL OFFICES
                                              Finance and Information                Facilities and Support
          Washington, DC
                                              Technology Audit Office                   Services Office
            New York
             Atlanta
             Chicago
           Kansas City
            Fort Worth                             Real Property                   Human Resources Division
          San Francisco                             Audit Office
             Auburn
              Boston
           Philadelphia
                                               Acquisition Programs                 Information Technology
                                                   Audit Office                            Division
           SUB-OFFICES
               Denver
           Laguna Niguel
           Ft. Lauderdale                           REGIONAL
            Sacramento                            AUDIT OFFICES
                                                     New York
                                                    Philadelphia
                                                      Atlanta
                                                      Chicago
                                                    Kansas City
                                                     Fort Worth
                                                   San Francisco




4                                  OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
OIG Offices and Key Officials
OFFICE OF THE INSPECTOR GENERAL

Inspector General                                        Brian D. Miller (J)                   (202) 501-0450
Deputy Inspector General                                 Robert C. Erickson (JD)               (202) 501-0450
Special Assistant for Communications                     Sarah Breen                           (202) 219-1351
Congressional Affairs Liaison                            Jennifer Riedinger                    (202) 501-4634
OFFICE OF COUNSEL TO THE INSPECTOR GENERAL

Counsel to the IG                                        Richard Levi (JC)                     (202) 501-1932
OFFICE OF ASSOCIATE INSPECTOR GENERAL

Associate Inspector General                              Larry Lee Gregg (JX)                  (202) 219-1041
OFFICE OF FORENSIC AUDITING, EVALUATION, AND ANALYSIS

Director                                                 Patricia D. Sheehan (JE)              (202) 273-4989
OFFICE OF ADMINISTRATION

Assistant IG for Administration                          Stephanie Burgoyne (JP)               (202) 273-5006
Deputy Assistant IG for Administration                   Erica Kavanagh (JP)                   (202) 501-4675
Director, Budget and Financial Management Office         Stephanie Burgoyne (JPB)              (202) 273-5006
Director, Human Resources Division                       Denise McGann (JPH)                   (202) 501-1734
Director, Information Technology Division                William English (JPM)                 (202) 273-7340
Supervisor, Facilities and Services Office               Carol Mulvaney (JPF)                  (202) 501-3119
Contracting Officer                                      Brenda Reynolds (JPC)                 (202) 501-2887
OFFICE OF AUDITS

Assistant IG for Auditing                                Theodore R. Stehney (JA)              (202) 501-0374
Deputy Assistant IG for Acquisition Programs Audits      James P. Hayes (JA)                   (202) 273-7321
Deputy Assistant IG for Real Property Audits             Rolando N. Goco (JA)                  (202) 501-2322
Chief of Staff                                           Peter J. Coniglio (JA)                (202) 501-0468
Program Manager, FAR Disclosure and False Claims
                                                         Paul J. Malatino (JA)                 (202) 208-0021
Act Resolution Program
Director, Audit Planning, Policy, and Operations Staff   Lisa L. Blanchard (JAO)               (202) 273-7271
Director, Administration and Data Systems Staff          Thomas P. Short (JAS)                 (202) 501-1366
DEPUTY ASSISTANT INSPECTOR GENERAL FOR AUDITING/REGIONAL INSPECTORS GENERAL FOR AUDITING/PROGRAM DIRECTORS

Northeast and Caribbean Region Audit Office              Steven D. Jurysta (JA-2)              (212) 264-8620
Mid-Atlantic Region Audit Office                         Thomas P. Tripple (JA-3)              (215) 446-4840
Southeast Sunbelt Region Audit Office                    Nicholas V. Painter (JA-4)            (404) 331-5125
Great Lakes Region Audit Office                          Adam R. Gooch (JA-5)                  (312) 353-7781
Heartland Region Audit Office                            John F. Walsh (JA-6)                  (816) 926-7052
Greater Southwest Region Audit Office                    Paula N. Denman (JA-7)                (817) 978-2571
Pacific Rim Region Audit Office                          Hilda M. Garcia (JA-9)                (415) 522-2744
Acquisition Programs Audit Office                        Barbara Bouldin (JA-A)                (202) 273-7370
Finance and Information Technology Audit Office          Carolyn Presley-Doss (JA-F)           (202) 273-7323
Real Property Audit Office                               Marisa A. Roinestad (JA-R)            (202) 219-0088




OCTOBER 1, 2013 – MARCH 31, 2014                                                                            5
                                                                            OIG OFFICES AND KEY OFFICIALS




 OFFICE OF INVESTIGATIONS

 Assistant IG for Investigations                       Geoffrey Cherrington (JI)           (202) 501-1397
 Deputy Assistant IG for Investigations                Lee Quintyne (JID)                  (202) 501-1397
 Director, Investigations Operations Division          Vacant                              (202) 501-1397
 Director, Internal Operations Division                Bruce S. McLean (JII)               (202) 208-2384
 SPECIAL AGENTS IN CHARGE (SAC)

 Mid-Atlantic Regional Office                          SAC Gerald R. Garren (JI-W)         (202) 252-0008
 Philadelphia Regional Office                          SAC James E. Adams (JI-3)           (215) 861-3550
 Northeast and Caribbean Regional Office               ASAC Ibrahim Arce (JI-2)            (212) 264-7300
 Boston Regional Office                                SAC Luis A. Hernandez (JI-1)        (617) 565-6820
 Southeast Regional Office                             SAC James Taylor (JI-4)             (404) 331-3084
 Ft. Lauderdale Resident Office                        ASAC Floyd Martinez (JI-4M)         (954) 356-6993
 Central Regional Office                               SAC Stuart G. Berman (JI-5)         (312) 353-7779
 Mid-West Regional Office                              SAC John F. Kolze (JI-6)            (816) 926-7214
 Denver Resident Office                                SA Sean Gomez (JI-8)                (303) 236-5072
 Southwest Regional Office                             SAC Paul W. Walton (JI-7)           (817) 978-2589
 Western Regional Office                               SAC David House (JI-9)              (415) 522-2755
 Laguna Niguel Resident Office                         ASAC Theresa Quellhorst (JI-9L)     (949) 360-2214
 Northwest Regional Office                             SAC Terry J. Pfeifer (JI-10)        (253) 931-7654




6                                 OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
Statistics on OIG
Accomplishments
                                                                                   SUMMARY OF OIG PERFORMANCE




Summary of OIG Performance
October 1, 2013 – March 31, 2014

 OFFICE OF AUDITS
 Total financial recommendations                                                                       $256,427,357
 These include:
     Recommendations that funds be put to better use                                                   $254,728,013
     Questioned costs                                                                                    $1,699,344
 Audit reports issued                                                                                           31
 Audit memoranda provided to GSA                                                                                12
 Management decisions agreeing with audit recommendations                                              $782,463,205


 OFFICE OF INVESTIGATIONS
 Referrals for criminal prosecution, civil litigation, administrative action, suspension & debarment           245
 Indictments and informations on criminal referrals                                                             45
 Cases accepted for criminal prosecution                                                                        35
 Cases accepted for civil action                                                                                12
 Successful criminal prosecutions                                                                               39
 Civil settlements                                                                                               5
 Contractors/individuals suspended and debarred                                                                 99
 Employee actions taken on administrative referrals involving GSA employees                                      9
 Civil settlements and court-ordered and investigative recoveries                                       $35,009,423




8                                  OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
FISCAL YEAR 2013 RESULTS




Statistical Summary of
OIG Accomplishments
Reports Issued
The OIG issued 31 audit reports. The 31 reports contained financial recommendations
totaling $256,427,357, including $254,728,013 in recommendations that funds be
put to better use and $1,699,344 in questioned costs. Due to GSA’s mission of
negotiating contracts for government-wide supplies and services, most of the savings
from recommendations that funds be put to better use would be applicable to other
federal agencies.


Management Decisions on OIG Reports
Table 1 summarizes the status of the universe of audits requiring management
decisions during this period, as well as the status of those audits as of March 31, 2014.
There were nine reports more than six months old awaiting management decisions
as of March 31, 2014. Table 1 does not include two implementation reviews that were
issued during this period because they are excluded from the management decision
process. Table 1 also does not include two reports excluded from the management
decision process because they pertain to ongoing investigations.


Table 1. Management Decisions on OIG Reports
                                                                          REPORTS WITH               TOTAL
                                                          NUMBER             FINANCIAL           FINANCIAL
                                                       OF REPORTS    RECOMMENDATIONS*     RECOMMENDATIONS
For which no management decision had been made as of 10/01/2013
Less than six months old                                       18                  14        $640,832,079
Six or more months old                                          5                    5        $64,812,941
Reports issued this period                                     29                  20        $256,427,357
                                       TOTAL                   52                  39        $962,072,377
For which a management decision was made during the reporting period
Issued prior periods                                           14                  12        $664,406,287
Issued current period                                          14                  10        $118,056,918
                                       TOTAL                   28                  22        $782,463,205
For which no management decision had been made as of 03/31/2014
Less than six months old                                       15                  10        $138,370,439
Six or more months old                                          9                    7        $41,238,733
                                       TOTAL                   24                  17        $179,609,172

* These totals include audit reports issued with both recommendations that funds be put to better use and
  questioned costs.




OCTOBER 1, 2013 – MARCH 31, 2014                                                                            9
                                                     STATISTICAL SUMMARY OF OIG ACCOMPLISHMENTS




Management Decisions on OIG Reports with
Financial Recommendations
Tables 2 and 3 present the reports identified in Table 1 as containing financial
recommendations by category (funds be put to better use or questioned costs).


Table 2. Management Decisions on OIG Reports with Recommendations that
         Funds Be Put to Better Use

                                                                          NUMBER           FINANCIAL
                                                                       OF REPORTS   RECOMMENDATIONS
For which no management decision had been made as of 10/01/2013
Less than six months old                                                      11      $638,265,760
Six or more months old                                                         4       $64,301,295
Reports issued this period                                                    17      $254,728,013
                                                          TOTAL               32      $957,295,068
For which a management decision was made during the reporting period
Recommendations agreed to by management                                       17      $775,501,842
Recommendations not agreed to by management                                    1         $3,833,771
                                                          TOTAL               18      $779,335,613
For which no management decision had been made as of 03/31/2014
Less than six months old                                                       9      $137,349,654
Six or more months old                                                         5       $40,609,801
                                                          TOTAL               14      $177,959,455


Management Decisions on OIG Reports with Questioned Costs
Table 3. Management Decisions on OIG Reports with Questioned Costs

                                                                          NUMBER          QUESTIONED
                                                                       OF REPORTS              COSTS
For which no management decision had been made as of 10/01/2013
Less than six months old                                                       7         $2,566,319
Six or more months old                                                         5          $511,646
Reports issued this period                                                     9         $1,699,344
                                                          TOTAL               21         $4,777,309
For which a management decision was made during the reporting period
Disallowed costs                                                              10         $3,127,592
Cost not disallowed                                                            0                 $0
                                                          TOTAL               10         $3,127,592
For which no management decision had been made as of 03/31/2014
Less than six months old                                                       5         $1,020,785
Six or more months old                                                         6          $628,932
                                                          TOTAL               11         $1,649,717




10                          OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
STATISTICAL SUMMARY OF OIG ACCOMPLISHMENTS




Investigative Workload
The OIG opened 101 investigative cases and closed 123 cases during this period.


Referrals
The OIG makes criminal referrals to the Department of Justice or other authorities for
prosecutive consideration, and civil referrals to the Civil Division of the Department
of Justice or to U.S. Attorneys for litigative consideration. The OIG also makes
administrative referrals to GSA officials on certain cases disclosing wrongdoing on
the part of GSA employees, contractors, or private individuals doing business with
the government.

During this period, the OIG also made three referrals to GSA officials for information
purposes only.


Actions on OIG Referrals
Based on these and prior referrals, 52 subjects were accepted for criminal prosecution
and 15 subjects were accepted for civil litigation. Criminal cases originating
from OIG referrals resulted in 45 indictments/informations and 39 successful
prosecutions. OIG civil referrals resulted in five case settlements. Based on OIG
administrative referrals, GSA management debarred 45 contractors/individuals,
suspended 54 contractors/individuals, and took nine personnel actions against
government employees.


Table 4. Summary of OIG Referrals

TYPE OF REFERRAL                                CASES                    SUBJECTS

Criminal                                        45                        74
Civil                                           23                        33
Administrative Referrals for Action/Response                              53
Suspension                                      22                        50
Debarment                                       16                        35
TOTAL                                          106                       245




OCTOBER 1, 2013 – MARCH 31, 2014                                                        11
                                                      STATISTICAL SUMMARY OF OIG ACCOMPLISHMENTS




Monetary Results
Table 5 presents the amounts of fines, penalties, settlements, recoveries, forfeitures,
judgments, and restitutions payable to the U.S. government as a result of criminal and
civil actions arising from OIG referrals. Table 6 presents the amount of administrative
recoveries and forfeitures as a result of investigative activities.


Table 5. Criminal and Civil Results*

                                                              CRIMINAL                      CIVIL

Fines and Penalties                                          $45,177
Settlements                                                                          $10,105,000
Recoveries                                                                                   $0
Forfeitures                                               $5,835,393
Seizures                                                           $0
Restitutions                                              $6,518,809
TOTAL                                                    $12,399,379                 $10,105,000


Table 6. Non-Judicial Recoveries


Administrative Recoveries*                                                           $12,505,043
Forfeitures                                                                                  $0
TOTAL                                                                                $12,505,043

* Administrative Recoveries includes the FAR disclosures updated on page 30.




12                           OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
Management
Challenges
                                                                                           GSA’S SIGNIFICANT MANAGEMENT CHALLENGES




                          GSA’s Significant
                          Management Challenges
                          The Congress requested the Inspectors General of major federal agencies to report
                          on the most significant management challenges facing their respective agencies. Our
                          strategic planning process commits us to addressing these critical issues. The following
                          table briefly describes the challenges we have identified for GSA and references related
                          work products issued by the GSA OIG and discussed in this semiannual report.



CHALLENGE                  BRIEF DESCRIPTION OF CHALLENGE

Acquisition Programs       GSA’s procurement organization awards and administers government-wide contracts worth hundreds of billions
                           of dollars. While trying to obtain quality products and services at the best available prices, attention is needed
                           to mitigate challenges with the GSA Schedules Program that include pricing, contractor compliance, contract
                           workload management, meeting small business goals, and proposed changes to the GSA Acquisition Regulation.

GSA’s Organizational       In FY 2012, GSA began consolidating its budget and financial management as well as other support services and
Structure                  administrative functions. In moving forward with the consolidation, GSA needs to reassess many aspects of its
                           controls and systems.

Improving the              The federal government is focusing on improving the management and use of federal real property. To meet these
Management and             goals, Public Buildings Service needs to align its programs and operations to solutions that address both short and
Utilization of Federal     long term customer needs. Although immediate customer need often drives workload, local real property portfolios
Real Property              must be examined to assess whether they are suitable to meet long term goals.

Reducing GSA’s             Due to GSA’s reduction in workspace for its central and regional offices, GSA must implement and manage a
Footprint – Managing a     mobile workforce strategy. With increased telework and physical contact being limited, challenges will involve
Mobile Workforce           collaboration, management and supervision, document security, and information technology (IT) capabilities.

Information Technology     Improvements are needed to protect sensitive GSA information and to address emerging risks. Coordination,
                           collaboration, and accountability across the agency are necessary to protect sensitive GSA information. GSA IT
                           systems do not always use effective data models, business rule validation checks, or data exchange specifications
                           to ensure data quality. GSA’s continued adoption of mobile computing remains a risk that must be managed.

Financial Reporting        GSA continues to have weaknesses in internal controls and financial processes, including the absence of an
                           integrated procurement and acquisition system, ineffective information and communication processes, and the
                           lack of effective supervision over regional and operational personnel. Further, GSA is challenged with identifying
                           the existence of environmental contamination in its properties and needs an effective process in place to
                           determine remediation costs of environmental liabilities for its financial statement reporting.

Protection of Federal    GSA plays a significant role in providing a safe, healthy, and secure environment for employees and visitors. GSA,
Facilities and Personnel along with the Department of Homeland Security, has been designated as being responsible for the security of
                         federal facilities. Therefore, maintaining open, accessible, and safe public buildings remains a primary focus
                         for GSA. At the present time, the Government Accountability Office has taken the lead in overseeing this challenge.

Greening Initiative –      With its major role in federal construction, building operations, acquisition, and government-wide policy, GSA
Sustainable                faces challenges to achieve sustainability and environmental goals. GSA is required to increase energy efficiency,
Environmental              reduce greenhouse gas emissions, conserve water, reduce waste, support sustainable communities, and leverage
Stewardship                purchasing power to promote environmentally responsible products and technologies. GSA has to develop a
                           management framework, collect data to support goals and evaluate results, and fund specific programs.

American Recovery          GSA will continue to be affected through the conclusion of Recovery Act projects. Although many of these projects
and Reinvestment Act       are completed or near completion, challenges remain, including: (1) managing projects with reduced travel,
Impact                     (2) preparing for the future submission of construction claims, (3) performing effective commissioning, and (4)
                           evaluating projects for reduced energy consumption and cost savings.




                          14                               OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
MANAGEMENT CHALLENGES




Management Challenges
Acquisition Programs
GSA provides federal agencies with billions of dollars in products and services through
various contract types. As of March 31, 2014, there were over 17,900 Multiple Award
Schedule (MAS) contracts under GSA’s procurement program that generated over
$16.9 billion in annual sales. We oversee this program by conducting preaward,
postaward, and performance audits. Historically, for every dollar invested in our
preaward audits, we achieve at least $10 in lower prices or more favorable contract
terms and conditions for the benefit of the government and taxpayer.

Significant Preaward Audits

The pre-decisional, advisory nature of preaward audits distinguishes them from other
audit products. This program provides vital, current information enabling contracting
officers to significantly improve the government’s negotiating position to realize millions
of dollars in savings on negotiated contracts. During this period, we performed
preaward audits of 23 contracts with an estimated value of over $5.1 billion and
recommended more than $254 million of funds to be put to better use. Management
decisions were also made on 18 preaward audit reports, which recommended over
$779 million of funds to be put to better use. Management agreed with 99 percent of
our recommended savings.

Four of our more significant audits were MAS contracts with combined projected
government sales of more than $713 million. These audits resulted in nearly $169
million of funds to be put to better use. Some of the more significant findings within
one or more of these audit reports include: (1) commercial sales practices and cost
buildup information was current and complete, but not accurate; (2) non-GSA schedule
customers’ discounts were greater than those disclosed; (3) higher GSA schedule rates
were negotiated than on a Blanket Purchase Agreement; (4) more favorable pricing
was granted to largest customers and subcontractors were used at lower rates; (5)
methodology for developing proposed rates was not accurate; (6) Price Reductions
clause was ineffective; (7) GSA sales were overreported; (8) GSA sales were
underreported resulting in underpayment of Industrial Funding Fee (IFF); (9) schedule
customers were overcharged for unqualified labor; and (10) Industrial Funding Fee
reporting process lacked internal controls to identify and allocate schedule sales by
Special Item Number.




OCTOBER 1, 2013 – MARCH 31, 2014                                                         15
                                                                              MANAGEMENT CHALLENGES




Audit of FAS’s Greater Southwest Acquisition Center –
Schedule 84 Pricing and Negotiation

Report Number A120124/Q/A/P14001, dated October 31, 2013

We identified multiple instances in which Schedule 841 contracting staff did not adhere
to federal regulations or Federal Acquisition Service (FAS) policies throughout the
negotiation process. Contracting officers should always conduct and document all
required components of the negotiation process and adhere to FAS policies. Further,
contracting officers should take full advantage of preaward audit assistance to achieve
greater cost savings. While we found that price evaluations generally complied with
federal regulations and policies, improvements should be made when documenting
the price evaluation. The purpose of the price evaluation or analysis is to support the
procurement decision and develop a negotiation position that enables the contracting
officer to obtain a fair and reasonable price. Contracting officers should clearly
depict the analysis conducted, the concluded position, and reference any supporting
documentation for the analysis in preparation for negotiations. If the price analysis and
negotiation procedures are not conducted diligently and documented in detail, then
assurance that customer agencies are receiving best value is at risk.

We noted other observations for the contract options reviewed, including incomplete
contract file documentation, invalid temporary extensions, and missing excluded
parties’ checks.

We recommended the FAS Commissioner:

      >> Improve the strength and consistency of negotiation procedures by:

        –– Implementing a risk-based approach for negotiating options.

        –– Modifying existing internal contract reviews to include requirements for
           documenting option negotiations.

        –– Using contract audit results as a key negotiation tool to achieve maximum cost
           savings and obtaining an understanding of circumstances when/why those
           results could not be achieved.

      >> Issue guidance and implement changes to internal quality review procedures to
         ensure that price analyses are contract-specific, provide detailed reasoning, and
         reference supporting documentation in the contract file.

      >> Revise existing temporary extension review procedures to ensure compliance
         with FAS Instructional Letter 2011-11 and examine the contracts with potentially
         invalid temporary extensions identified in this audit.

      >> Issue a FAS Operational Notice to emphasize federal regulations governing the
         timeliness and documentation of excluded parties checks.

The FAS Commissioner agreed with the report recommendations.

1	 Schedule 84 provides total solutions for law enforcement, security, facilities management, fire, rescue,
   clothing, marine craft, and emergency disaster response and is the highest revenue-producing schedule
   within the Greater Southwest Acquisition Center. In FY 2011 and FY 2012, Schedule 84 averaged
   approximately 1,500 active contracts with collective annual sales greater than $2.4 billion.




16                            OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
MANAGEMENT CHALLENGES




Audit of the Postpayment Audit Process, Transportation Audits Division,
Federal Acquisition Service

Report Number A120169/Q/9/P14002, dated March 31, 2014

This was the second of two transportation audits included in the Office of Inspector
General Audit Plan for fiscal year 2012. Our first audit focused on the Transportation
Audits Division’s prepayment audit process. Our objective for this audit was to
determine whether the Transportation Audit Division’s postpayment audit process
is effective, ensuring that the maximum amount of transportation overpayments
are recovered within the 3-year timeframe established under 31 U.S.C. 3726. We
performed both audits at the request of the Federal Acquisition Service’s Office of
Travel, Motor Vehicle, and Card Services.

GSA established a Transportation Audits Division (Division) within the Travel, Motor
Vehicle, and Card Services portfolio of the Federal Acquisition Service to identify and
recover overcharges and other debts related to the estimated $16.3 billion in annual
transportation bills paid by federal agencies to transportation service providers. These
services include shipping goods (household and commodities) and transporting
individuals (via airlines, trains, and ships).

We recommended the FAS Commissioner:

   >> Improve collection of overcharges before they expire by analyzing existing data
      to assess postpayment audit performance to reduce the significant lag between
      the bill pay date and the issuance of an overcharge. A reduction in lag time could
      improve its collection rates and amounts.

   >> Address the fact that the contracting officer’s technical representative is not
      enforcing the terms and conditions of the contract’s statement of work including:
      deliverables, timelines, second tier audits, and contractor qualifications.

   >> Adhere to GSA Information Technology Security Policy by ensuring that security
      provisions are notated on current and future solicitations and/or statements of
      work for postpayment audits.

   >> Have background screenings for contractors before they access GSA’s
      Information Technology systems so the Division is in compliance with the security
      policy.

   >> Update its internal audit tracking system to ensure agencies are submitting paper
      transportation bills in a timely manner, as required by 41 CFR 102‒118.425.

Given the $16.3 billion spent in government-wide transportation expenses in
fiscal year 2012, implementing the audit report’s recommendations could reduce
transportation overcharges that may otherwise remain uncollected.

The FAS Commissioner agreed with our report recommendations.




OCTOBER 1, 2013 – MARCH 31, 2014                                                        17
                                                                 MANAGEMENT CHALLENGES




Major Issues from Multiple Award Schedule Audits

Memorandum Number A120050-4, dated March 25, 2014

Since FY 2010, we have issued two memoranda regarding recurring issues within
the MAS program. Our FY 2012 preaward audits identified that: (1) almost half of
the contractors audited had inadequate sales monitoring and billing systems to
ensure proper administration of the price reduction and billing provisions of their
MAS contracts; (2) contractors continue to provide commercial sales practices (CSP)
disclosures that are not current, accurate, and/or complete; and (3) FAS contracting
officers (CO) overwhelmingly agreed with the recommended cost avoidances identified
in our audits, but only achieved 43 percent of those in actual savings.

In FY 2012, 19 of the 39 (49 percent) preaward audits identified contractors with
inadequate sales monitoring and billing systems. Further, 27 (69 percent) of
our preaward audits identified 51 specific sales and billing findings, resulting in
approximately $2.6 million of recommended monetary recoveries. Six of these identified
unreported price reductions account for 75 percent of the recommended monetary
recoveries. In addition, 14 audits reported the Price Reductions clause as ineffective.
This means that any potential cost savings afforded by the clause would never
be realized.

Of 39 FY 2012 preaward audits, we evaluated proposed prices for 25 contractors using
the submitted CSP disclosures. The CSPs contained non-current, inaccurate, and/
or incomplete information in 21 of those audits (84 percent). Using current, accurate,
and complete CSP information, we calculated potential cost savings of $188.5 million
if negotiated by FAS COs. Compared to FY 2011, the occurrence of deficient CSPs
increased by 15 percent.

Twenty-one of the audited contract options had been awarded as of October 21,
2013. Contracting officers agreed with the entire audit recommended cost avoidances
for these contracts, but only achieved 43 percent of the amount in actual savings
when the pending options were awarded. This represents marginal improvement
from the FY 2011 results. In one case, we noted a flawed negotiation technique that
resulted in achieving 0 percent of the agreed-to cost savings. After we brought this to
management’s attention, negotiations were reopened and $49.6 million in additional
savings were achieved, representing 100 percent of the recommended amount. This
additional amount raised the overall savings achieved from 43 to 65 percent.

Three issues reported in our current memorandum require FAS management to
focus on: (1) ensuring contractors properly administer the price reduction and billing
provisions of their contracts, (2) addressing the continued prevalence of CSP issues,
and (3) achieving a greater portion of recommended cost savings. While no formal
recommendations were made, we provided the information so FAS can decide how
to best address these issues to strengthen the integrity and cost effectiveness of the
MAS Program.




18                      OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
MANAGEMENT CHALLENGES




Summary of Systemic Procurement Issues within GSA’s National Capital Region

Memorandum Number A120171, dated November 7, 2013

We initiated this special project to examine recurring procurement issues in the National
Capital Region (NCR), the largest FAS region in terms of number of customers and
the largest Public Buildings Services (PBS) region in terms of rentable square feet and
direct revenues. Our objectives were to summarize these ongoing issues, reported
between FY 2007 and 2012, and to examine the underlying cause(s).

The reports we reviewed identified contract award, administration, funding, and
documentation issues within FAS and PBS.2 These issues were identified on both large
and small dollar value procurements and were not only recurring, but also significant.
Further, these procurement issues are impacting the ability of the Services (FAS
and PBS) to effectively fulfill their missions. Weaknesses in internal control may have
impaired NCR’s procurement process and the effectiveness of operations, as provided
in the following observations:

   >> FAS leadership has been in a constant state of flux;

   >> FAS has a shortage of experienced acquisition personnel;

   >> PBS has experienced a number of reorganizations since FY 2007;

   >> Based on the structure of PBS’s organization, acquisition is not the focus;

   >> Data integrity issues exist within both FAS and PBS;

   >> GSA lacks an integrated acquisition system;

   >> FAS and PBS do not frequently conduct risk assessments; and

   >> Monitoring efforts by FAS and PBS are not sufficient.

Developing and maintaining an effective system of internal control is a fundamental
responsibility of management. Recurring procurement issues within NCR demonstrate
the need for management to fulfill this responsibility. While strengthening the internal
control structure may not fully address all procurement issues, it may assist in
preventing future occurrences and detecting other potential causes.

NCR management provided comments acknowledging our observations.




2	 All references to reports include work products from audits, investigations, and other internal reviews.




OCTOBER 1, 2013 – MARCH 31, 2014                                                                             19
                                                                MANAGEMENT CHALLENGES




Improving the Management and Utilization of Federal Real Property
While the federal government is focusing on improving the management and utilization
of federal real property, GSA and its customers are also facing the reality of reduced
budgets. Given this environment, PBS needs to align its programs and operations to
solutions that address both short and long term needs. Although immediate customer
need often drives workload, local real property portfolios must be examined to assess
whether they are suitable to meet long term goals, especially where vacant owned
space could replace expiring leases.


PBS Needs To Develop Policies and Procedures for Use of
Section 412 Authorities

Memorandum Number A130132, dated November 12, 2013

Under Section 412 of the General Services Administration General Provisions
Consolidated Appropriations Act, 2005 (Section 412), PBS has proposed exchanging
real property for services on multiple properties. However, the exchange of real
property for services can be very complex, involving the valuation of both the real
property and the services. In some cases, a combination of services and/or real
property may be exchanged for another combination of services and/or real property,
further complicating the valuation effort.

This memorandum conveyed our concerns regarding PBS’s lack of policies and
procedures to manage exchanges under Section 412. Given the complexity of these
exchanges, PBS should implement the policies and procedures needed to ensure
goals and objectives are achieved and that the best value is obtained for the taxpayer.




20                      OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
MANAGEMENT CHALLENGES




Information Technology
Improved planning, development, and implementation of information technology (IT)
systems and services are needed to ensure quality data, support business decisions,
and improve investments. GSA management faces challenges in meeting two strategic
business goals of (1) providing effective and reliable IT systems and solutions, and
(2) providing balanced stewardship of information and technology. Challenges exist
because GSA systems often do not integrate with each other, resulting in duplication of
business processes, cost inefficiencies, and customer dissatisfaction.


FY 2013 Office of Inspector General FISMA Audit of GSA’s Information
Technology Security Program

Memorandum Number A130015-1, dated March 31, 2014

GSA’s IT Security Program provides guidance and oversight to protect GSA systems
and data. The Federal Information Security Management Act of 2002 (FISMA) requires
an annual, independent evaluation of an agency’s information security program
and controls for select systems. The objective of our audit was to determine if GSA
developed, documented, and implemented an agency-wide IT security program
that fulfills the requirements of FISMA. If not, what additional actions are needed to
strengthen GSA’s IT Security Program and protect the confidentiality, integrity, and
availability of GSA’s systems and data?

We found that the Office of the Chief Information Officer (OCIO) continues to take
steps to improve the agency-wide IT Security Program. For example, the OCIO is
currently consolidating the IT functions of GSA service and staff offices under the OCIO
to improve leadership accountability and increase organizational effectiveness and
efficiency. However, we found that additional steps are needed to strengthen GSA’s IT
Security Program in two key process areas: (1) security assessment and authorization,
and (2) configuration management.

Two systems we reviewed did not undergo a required assessment for authorizing
the system to operate. According to GSA’s procedural guidance, the completion
of an independent penetration test is required as part of authorizing the system to
operate. We also found that for the same two systems, the authorization packages
did not contain all of the required system security documentation as specified in
GSA’s procedural guidance. The authorization package is required to be reviewed and
approved by system officials to ensure the completion of all required assessments and
the inclusion of all required security documentation prior to submission to the Office of
the Chief Information Security Officer for review and concurrence.

We also determined that two systems’ plans of action and milestones did not include
all security weaknesses identified in the security assessment report and vulnerability
scanning results. GSA’s procedural guidance requires all vulnerabilities identified in
the information system discovered during the assessment process and vulnerability
scanning be documented in the plan of action and milestones.




OCTOBER 1, 2013 – MARCH 31, 2014                                                        21
                                                                MANAGEMENT CHALLENGES




Finally, none of the systems reviewed fully implemented security patches to address
vulnerabilities consistent with GSA’s requirements. From the technical testing we
performed on each system, we identified instances of vulnerabilities where patches
were released but not implemented within GSA’s timeframes to mitigate the identified
vulnerabilities. We also determined that vulnerability scanning was not conducted
on one system within the recommended timeframe and the vulnerability scanning
performed did not assess for compliance with baseline configurations.

While we have previously made formal recommendations in the areas of security
assessment and configuration management at the individual service and staff office
levels of GSA, we determined that the recurring nature of these issues warrants
management’s attention at the GSA IT Security Program level. We also determined
that the program level policy and procedural guidance regarding these areas has been
developed and documented; however, the actual implementation of this policy and
guidance remains a challenge for the GSA IT Security Program.

We did not make any formal program level recommendations due to the current
restructuring of GSA’s IT function. However, an OIG evaluation of GSA’s IT Security
Program may be warranted once the restructuring is complete.




22                      OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
MANAGEMENT CHALLENGES




Financial Reporting
Controls over budgetary and financial reporting are affected by the absence of
an integrated procurement and acquisition system, ineffective information and
communication processes, and the lack of effective supervision over regional and
operational personnel. In addition, GSA does not have an effective due care process
to investigate and identify properties that may contain hazardous substances. Without
an effective process in place, GSA is challenged with identifying the existence of
environmental contamination in its properties.


Audit of the General Services Administration’s
Fiscal Year 2013 Financial Statements

Report Number A130013/B/F/F14001, dated December 19, 2013

In accordance with the Chief Financial Officers Act of 1990 (P.L. 101–576), as
amended, we directed the audit of GSA’s FY 2013 Financial Statements. The audit
was performed by an independent public accounting firm (IPA); we provided oversight
and guidance. The IPA issued an unqualified opinion on the balance sheets and the
related consolidated and individual statements of net cost, changes in net position,
and the combined and individual statements of budgetary resources for the Agency,
the Federal Buildings Fund, and the Acquisition Services Fund, for the year ended
September 30, 2013.

The IPA identified the following material weaknesses related to financial management
and reporting controls:

   >> For controls over estimated liabilities for asbestos-related cleanup costs, GSA
      did not have procedures in place to gather reliable and relevant data needed
      to develop an effective estimation methodology. GSA developed multiple
      assumptions and costs factors for its estimating methodology based on data that
      was not relevant, reliable, or valid.

   >> For controls over manual journal entries, GSA did not have in place fully
      developed policies and procedures that are sufficiently analyzed, vetted,
      and approved before recording adjusting entries. GSA continues to record
      transactions based on draft policies as authoritative guidance.

   >> For controls over the disclosure of related future minimum lease payments, GSA
      did not have controls, nor a process in place, to ensure lease disclosures are
      presented in accordance with federal accounting and disclosure standards.




OCTOBER 1, 2013 – MARCH 31, 2014                                                      23
                                                                    MANAGEMENT CHALLENGES




The IPA also identified the following significant deficiencies related to accounting and
reporting of property plant and equipment, budgetary accounts and transactions,
accounting and reporting of leases and occupancy agreements, and entity
level controls:

      >> For controls over accounting and reporting of property and equipment, GSA
         did not consistently record property disposals when they occurred and the
         transfers of substantially completed projects in a timely manner. Also, costs
         were incorrectly capitalized to lease properties, and leasehold improvements
         were incorrectly classified. In addition, GSA’s applicable feeder and fixed asset
         subsidiary systems do not have the functionality to capture substantial completion
         dates for multi-phase or multi-asset building projects.

      >> For controls over budgetary accounts and transactions, internal control
         deficiencies existed in GSA’s accounting and business processes over
         undelivered orders, unfilled customer orders, and funds controls.

      >> For the controls over the accounting for leases and occupancy agreements,
         GSA did not ensure that transactions are recorded promptly and accurately, and
         properly classified in accordance with federal financial accounting standards.

      >> For entity level controls, GSA’s ineffective control environment contributed to the
         deficiencies related to the accounting and reporting of property and equipment,
         budgetary accounts and transactions, and the accounting and reporting of leases
         and occupancy agreements.

The IPA issued recommendations to correct the reported material weaknesses and
significant deficiencies.




24                         OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
MANAGEMENT CHALLENGES




GSA’S Greening Initiative – Sustainable Environmental Stewardship
With its major role in federal construction, building operations, acquisition, and
government-wide policy, GSA faces challenges to achieve sustainability and
environmental goals. GSA is required to increase energy efficiency, reduce greenhouse
gas emissions, conserve water, reduce waste, support sustainable communities, and
leverage purchasing power to promote environmentally responsible products and
technologies. GSA has to develop a management framework, collect data to support
goals and evaluate results and fund specific programs.


Reduction in Energy Consumption from Recovery Act Projects at the Goodfellow
Federal Center Complex in St. Louis, Missouri, Is Not Apparent

Memorandum Number A090184-80, dated March 18, 2014

As part of our oversight of GSA’s Recovery Act projects, we reviewed buildings with
limited scope Recovery Act funding in Region 6 for their contribution to federally
mandated energy conservation goals. The objective of our review was to determine
whether buildings that had Recovery Act projects were contributing to the mandated
goals and, if not, why. We focused our review on the Goodfellow Federal Center
because energy usage on the campus was substantially higher than any of the other
buildings in our sample, and it received the most Recovery Act funding in our sample.

The Goodfellow Federal Center is located outside the central business district of
St. Louis, MO. The 65-acre campus contains 24 buildings that provide over 1.8 million
gross square feet of office and other space. As part of the Recovery Act, Goodfellow
received over $42 million for infrastructure, building modernization, and energy-related
improvements. Work on Buildings 110 and 104 was substantially complete by February
2011 and June 2011, respectively, giving PBS around two years of energy consumption
data with the upgrades in place.

We found that the Goodfellow Federal Center exhibits a pattern of increased electricity
usage, despite the Recovery Act projects. Goodfellow neither meets GSA’s individual
building goal of a 20 percent reduction in energy use, nor contributes significantly
towards the mandated 24 percent agency-wide reduction in energy consumption.

In its response, GSA Region 6 officials outlined a variety of energy-related projects that
were undertaken at the Goodfellow Campus after our review.




OCTOBER 1, 2013 – MARCH 31, 2014                                                        25
                                                                    MANAGEMENT CHALLENGES




American Recovery and Reinvestment Act Impact
The Recovery Act provided GSA with a $5.55 billion appropriation for its Federal
Buildings Fund, and in accordance with the Act, PBS is using the funds to convert
federal buildings into High-Performance Green Buildings, as well as to construct federal
buildings, courthouses, and land ports of entry. The Recovery Act mandated that $5
billion of the funds be obligated by September 30, 2010, and that the remaining funds
be obligated by September 30, 2011. Under this mandate GSA’s project teams have
had to plan and contract for projects within extremely short timeframes. Although many
of these projects are complete or near completion, challenges remain. Specifically: (1)
managing projects with reduced travel; (2) preparing for a future inflow of construction
claims; (3) performing effective commissioning; and (4) evaluating projects for reduced
energy consumption and cost savings.


PBS Did Not Follow Internal Guidance for Congressional Notification and
Violated Competition Requirements When Supplementing Funding of
Recovery Act Projects

Report Number A120111/P/R/R14001, dated March 17, 2014

As a part of our oversight responsibilities of the projects funded by the Recovery
Act, we reviewed modernization projects for instances where PBS supplemented the
projects with non-Recovery Act funding. These projects consisted of full and partial
building modernizations that included the replacement of mechanical, electrical, and
plumbing systems; fire and life safety systems; and interior and exterior finishes. The
objective of our audit was not only to determine whether PBS supplemented the
funding of Recovery Act projects with non-Recovery Act funds, but, also, to determine
if the funds were used in compliance with applicable laws, regulations, and policies.

We identified two deficiencies: PBS supplemented Recovery Act projects with
non-Recovery Act funds without notifying Congress, and PBS awarded contract
modifications in violation of competition requirements.

We recommended the PBS Commissioner should take the following actions:

      >> Notify Congress of the use of Minor Repairs and Alterations (R&A) funds to
         supplement Recovery Act projects;

      >> Perform an internal review to identify Recovery Act projects that were
         supplemented with non-Recovery Act funding without Congressional
         notification; and

      >> Ensure that changes outside the scope of the contract are handled in
         accordance with FAR Part 6.

The PBS Commissioner agreed with the report recommendations.




26                         OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
MANAGEMENT CHALLENGES




Security and Pricing Concerns on the Recovery Act Projects at the Byrne
Courthouse and Green Federal Building

Memorandum Number A090184-77, dated February 6, 2014

PBS awarded a contract to provide design and construction for the replacement
of air handler units with high performance equipment and the installation of a
vegetative roof at the Green Federal Building; as well as the installation of a rooftop
crystalline photovoltaic system at the Byrne Courthouse. Both buildings are located
in Philadelphia, PA. Our objective was to determine if PBS awarded and administered
contracts for limited scope and small construction projects in accordance with
prescribed criteria and Recovery Act mandates.

We identified three contract administration issues. First, several subcontractor
employees worked onsite without evidence of appropriate security clearances,
including one who worked onsite without a favorable preliminary adjudication. Second,
the prime contractor applied excessive overhead and profit factors to subcontractor
work, resulting in overcharges of $45,859. Third, for one significant modification,
the CO could not rely on the Independent Government Estimate for assuring
price reasonableness.

In her response, the Mid-Atlantic Regional Administrator agreed with our assessment of
the issues and provided the corrective actions being taken. With regard to the security
issues, she stated that Region 3 was reviewing its procedures to make changes as
needed to prevent future incidents and had already added the Security Program
Manager to the distribution list of newly-awarded projects and hired another Security
Manager to increase the oversight of projects. With regard to the excessive overhead
and profit, she stated that PBS had begun providing training on contractor markups to
the region’s acquisition workforce. Finally, with regard to the need for documentation
to support pricing, she stated that the Region instituted a review of Pre- and Post-
Negotiation Memorandums to ensure that contract actions are properly supported
and documented.




OCTOBER 1, 2013 – MARCH 31, 2014                                                         27
                                                                      MANAGEMENT CHALLENGES




IRS Service Center Modernization Modifications Were Initially Invalid

Memorandum Number A120174-3, dated November 4, 2013

As part of the corrective action plan for a prior audit report, PBS officials stated that
they would review Recovery Act projects to identify potential funding concerns.3 The
PBS officials committed to take corrective actions where necessary to correct improper
obligations, record proper obligations, or de-obligate improperly obligated funds. As
part of our limited scope review of corrective actions to determine if PBS corrected
improperly obligated funds prior to the December 31, 2012, funds rescission deadline,
we identified a project at the IRS Service Center Modernization in Andover, MA,
with both an invalid obligation and an unprocessed proper upward adjustment.
These issues were not detected during PBS’s own internal reviews but have since
been corrected.

We also found two modifications to contracts under the IRS Service Center
Modernization project that had insufficient scopes of work and prices to create valid
obligations. PBS cancelled one of the modifications and removed the funding from
the project. The other modification was partially definitized by the time Recovery Act
funding expired, September 30, 2011. PBS has since processed the remaining funds
as a valid upward adjustment.

As our review of PBS’s corrective actions was limited in scope, we are unable to
provide full assurance that all invalid obligations were corrected. Although PBS made
corrections to the modifications cited in this memorandum, PBS should ensure that all
necessary accounting transactions are made so that GSA Recovery Act reporting and
financial statements are accurate.

PBS and the Office of the Chief Financial Officer agreed with the memorandum.




3	 Alert Report, Number A120174/P/R/W13001, dated October 24, 2012.




28                         OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
MANAGEMENT CHALLENGES




Award and Administration of Task Order GS-P-05-10-SC-0004 for
Renovations at the Senator Paul Simon Federal Building, Carbondale, Illinois,
Recovery Act Project

Memorandum Number A090184-19, dated November 1, 2013

PBS awarded a task order for services to provide “design, shop drawings, manufacturing
and installation services including but not limited to existing field investigations, design and
installation services necessary to accomplish” a flexible building integrated photovoltaic
system at the Senator Paul Simon Federal Building in Carbondale, IL (Carbondale). This
consisted of a new roof system, solar array modules, and a roof membrane replacement.

Our objective was to determine if PBS awarded and administered contracts for limited
scope and small construction projects in accordance with prescribed criteria and
Recovery Act mandates.

We identified two areas of concern related to the award and administration of this
task order. First, price reasonableness for the project is not assured because of
the improper use of a Multiple Award Schedule contract. Second, subcontractor
employees did not receive required security clearances.

Region 5 PBS management disagreed with our findings, stating that: (1) the roof
replacement and installation of a photovoltaic system was a routine, noncomplex
project and therefore could have been procured using schedules; (2) regardless of the
number of bids received, PBS sent bid requests to five contractors; and (3) although
the lump pricing could not be tied to the GSA schedule contract, the pricing was
supported by the schedule contract.

We responded that: (1) a roof replacement is not a routine project and should not have
been procured using schedules; (2) PBS received fewer than three quotes and did not
prepare a written justification; and (3) the pricelist supplied by the contractor did not tie
to any of the pricing, therefore none of it was supported by the schedule contract.


Contract Administration Issues on the Recovery Act Project at the
Bonneville Power Administration and Federal Buildings in Portland, Oregon

Memorandum Number A090184-51, dated November 20, 2013

GSA awarded a task order for energy efficiency upgrades and general construction
services at the Bonneville Power Administration and GSA federal buildings located
in Portland, OR. Our objective was to determine if PBS awarded and administered
contracts for limited scope and small construction projects in accordance with
prescribed criteria and Recovery Act mandates.

We identified three issues related to the award and administration of construction
services at the subject federal buildings: (1) security clearance requirements were not
followed, (2) foreign-manufactured construction material was incorporated into the
project, and (3) Davis-Bacon Act requirements were not followed.

In its response, Region 10 PBS officials concurred with our findings and provided a
comprehensive action plan to correct the deficiencies noted in this memorandum.




OCTOBER 1, 2013 – MARCH 31, 2014                                                             29
                                                                   MANAGEMENT CHALLENGES




Other Initiatives
The FAR requires government contractors to disclose credible evidence of violations
of federal criminal law under Title 18 of the United States Code (18 U.S.C.) and the
False Claims Act to agencies’ OIGs. To facilitate implementation of this requirement, we
developed internal procedures to process, evaluate, and act on these disclosures and
created a website for contractor self-reporting.


FAR Rule for Contractor Disclosure

Effective December 12, 2008, the Civilian Agency Acquisition Council and the Defense
Acquisition Regulations Council agreed on a final rule amending the FAR. The final rule
implements the Close the Contractor Fraud Loophole Act, Public Law 110–252, Title
VI, and Chapter 1. Under the rule, a contractor must disclose, to the relevant agency’s
OIG, credible evidence of a violation of federal criminal law (within 18 U.S.C.) involving
fraud, conflicts of interest, bribery, or the offering or acceptance of gratuities connected
to the award, performance, or credible evidence of a violation of the Civil False Claims
Act, connected to the award, performance, or closeout of a government contract
performed by the contractor or subcontractor. The rule provides for suspension or
debarment when a principal knowingly fails to disclose, in writing, such violations in a
timely manner.


Disclosures for this Reporting Period

As disclosures are made, the Offices of Audits, Investigations, and Counsel jointly
examine each acknowledgment and determine what actions, if any, are warranted.
During this reporting period, we received seven new disclosures. The matters
disclosed include: employee fraud; unqualified labor; and failure to comply with
contract requirements related to: commercial sales practices disclosures, billings,
price reduction monitoring, and the Trade Agreements Act (TAA). We concluded
our evaluation of eight existing disclosures resulting in $2 million in settlements and
recoveries to the government, and assisted on two disclosures referred by another
agency because of their potential impact on GSA operations. Finally, we continued to
evaluate 41 existing disclosures during this reporting period.


Government Contractor Significant Report Findings

The National Defense Authorization Act for FY 2008, P. L. 110–181, requires each
IG appointed under the Inspector General Act of 1978 to submit an annex on final,
completed contract audit reports issued to the contracting activity as part of its
Semiannual Report to the Congress. The annex addresses significant audit findings—
unsupported, questioned, or disallowed costs in excess of $10 million—or other
significant contracting issues. During this reporting period, there were no audit reports
that met these requirements.




30                       OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
Significant Investigations
SIGNIFICANT INVESTIGATIONS




Significant Investigations
GSA is responsible for providing working space for one million federal employees.
The Agency also manages the transfer and disposal of excess and surplus real and
personal property and operates a government-wide services and supply system.
To meet the needs of the customer agencies, GSA contracts for billions of dollars’
worth of equipment, supplies, materials, and services each year. We conduct reviews
and investigations in all these areas to ensure the integrity of the Agency’s financial
statements, programs, and operations, and that taxpayers’ interests are protected.
In addition to detecting problems in these GSA programs and operations, the OIG is
responsible for initiating actions and inspections to prevent fraud, waste, and abuse
and to promote economy and efficiency. When systemic issues are identified during
investigations, they are shared with GSA management for appropriate corrective action.
During this period, civil, criminal, and other monetary recoveries totaled over $35 million
(see Tables 5 and 6).


Civil Settlements

Axway, Inc. Agrees To Pay $6.2 Million To Resolve False Claims Allegations

In October of 2013, Axway, Inc. agreed to pay $6,200,000 to resolve allegations
under the False Claims Act that it and its predecessors knowingly provided GSA
with defective pricing information in order to inflate the prices of software licenses
and related services in Axway’s GSA Federal Supply Schedule contract, number
GS‑35F‑0009M. The investigation began based on a qui tam alleging that Tumbleweed
Communications Corporation (Axway’s predecessor) violated the False Claims Act.
GSA originally awarded the contract to Valicert, Inc. on October 3, 2001. In October
2003, Valicert merged with Tumbleweed, and in December 2008, Tumbleweed merged
with Axway. In 2007, when the MAS contract was renewed, Tumbleweed again failed
to provide accurate and complete commercial pricing disclosures. Tumbleweed and
Axway also failed to comply with the contract’s price reduction clause.


Iron Bow Technologies, LLC Agrees To Pay $500,000 To Resolve False
Claims Allegations

Based upon a qui tam filed under seal on August 18, 2010, in the U.S. District Court
for the District of Columbia, the GSA OIG undertook an investigation into Apptis,
Inc.’s compliance with the terms of its GSA Federal Supply Schedule (FSS) contract.
The complaint alleged violations of the False Claims Act in that Apptis knowingly sold
products under its FSS contract, number GS-35F-4460G, that were not in compliance
with the Trade Agreements Act (TAA). Apptis, now known as Iron Bow Technologies,
LLC, agreed to pay $500,000 to settle the allegations.




OCTOBER 1, 2013 – MARCH 31, 2014                                                        33
                                                                  SIGNIFICANT INVESTIGATIONS




Qui Tam Complaint Leads to $300,000 Recovery

GIGA, Inc. agreed to pay $300,000 to resolve allegations under the False Claims Act
that it knowingly sold certain products under its GSA FSS contract, GS-07F-0403M,
that were not in compliance with the TAA. A qui tam filed in U.S. District Court for the
District of Columbia in 2011 claimed that GIGA had sold non-TAA compliant boots to
government agencies in violation of the terms of its FSS contract.


Former COTR Agrees To Pay $105,000 To Resolve Qui Tam Alleging False Information

In June 2009, GSA OIG received a qui tam complaint alleging contract irregularities
related to a Blanket Purchase Agreement (BPA) awarded to SAIC in 2006. During the
investigation, federal agents learned that GSA had established a memorandum of
understanding with Steve Stallings, Director of Trusted Agent (TAgent), to act as the
independent agency administrator of the BPA. Stallings had represented that TAgent
was an independent U.S. government agency under DOD, and Stallings was its
Director. In fact, TAgent is not a federal agency, and Stallings was a retired Air Force
Lt. Colonel employed by a state institution in New Mexico, not a federal employee.
The investigation also determined that SAIC personnel were aware that Stallings was
not eligible to serve as an independent authority for a federal contract. A joint effort
of GSA OIG, Army CID, DCIS, U.S. Air Force Office of Special Investigations, the
U.S. Attorney’s Office for the Middle District of Florida, and the Commercial Litigation
Branch of the Department of Justice’s Civil Division resulted in a settlement agreement
with SAIC, and, more recently, a settlement agreement with Stallings, under which he
agreed to pay $105,000.


Criminal Investigations

Conspirators in Bid-Rigging Scheme Sentenced

A joint GSA OIG, Department of Homeland Security (DHS) OIG, Small Business
Administration (SBA) OIG, and Veterans Affairs OIG investigation revealed that
Thomas Flynn and Anthony Bilby participated in a scheme whereby employees at
Four Points Technology (where Flynn was the vice president of sales) and Thundercat
Technology (where Bilby was an outside sales representative) created the appearance
of competition by alternately inflating bids to steer contracts toward the other company.
Flynn and Bilby pled guilty to conspiracy, and on January 24, 2014, Flynn was
sentenced to three months of imprisonment and two years of supervised release, and
was required to forfeit $80,000 and pay a $500 fine. On February 21, 2014, Bilby was
sentenced to 16 months of imprisonment and two years of supervised release, and
was required to forfeit $1,065,103, and perform 500 hours of community service.




34                       OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
SIGNIFICANT INVESTIGATIONS




Unauthorized Purchases Result in 15 Months in Federal Prison and
Three Years’ Probation

After an Army audit revealed unauthorized purchases from GSA Advantage,
the GSA OIG, the Federal Bureau of Investigation (FBI), and the Army CID Major
Procurement Fraud Unit began a joint investigation, which revealed that Sikander and
Husein Kermali fraudulently obtained and sold products from GSA Advantage on the
open market. Among other steps, the GSA OIG and the FBI conducted undercover
purchases and controlled deliveries. As part of the scheme, items valued at over
$10 million were shipped to various addresses across the country by a cooperating
defendant. On March 5, 2014, Sikander Kermali was sentenced to 15 months in federal
prison and three years’ probation for wire fraud, and ordered to pay restitution in the
amount of $6,200,000 and forfeiture in the amount of $4,579,956. On February 6,
2014, Husein Kermali pled guilty to wire fraud.


Contractor Sentenced after Paying Bribes to GSA Employee

A GSA OIG investigation revealed that Darold Patterson, who owned and operated
a general construction company located in Rockville, MD, had paid a cooperating
defendant (a GSA employee) at least two cash bribe payments in exchange for
contracts for work to be completed at GSA facilities. Following a November 8, 2013,
guilty plea to bribery of public officials, Patterson was sentenced to eight months of
home confinement, 14 months of probation, and 100 hours of community service, and
was ordered to pay a $3,000 fine, forfeit $1,800, and pay a $100 special assessment.


Contractor Pled Guilty to Bribery

An investigation by the GSA OIG revealed that Daryl Kitchen, who owned and operated
a general construction company located in Upper Marlboro, MD, paid a (former) GSA
building manager at least five cash bribes totaling approximately $1,000 in exchange
for work to be completed at GSA facilities in Maryland. On September 5, 2013, Kitchen
was arrested by GSA OIG Special Agents, and has now pled guilty to bribery of
public officials.


Contractor Pled Guilty to Bribery

An investigation by the GSA OIG revealed that Robert Hales, a general construction
contractor, paid a GSA employee at least two cash bribes in exchange for work to be
completed at GSA facilities in Maryland. On September 5, 2013, Hales was arrested by
GSA OIG Special Agents, and he has now pled guilty to bribery of public officials.




OCTOBER 1, 2013 – MARCH 31, 2014                                                    35
                                                                SIGNIFICANT INVESTIGATIONS




Two Contractors Pled Guilty to Bribery

An investigation by the GSA OIG revealed that Carl Roberts and Ronald Wilkinson,
general construction contractors, paid a GSA employee at least two cash bribe
payments in exchange for work to be completed at GSA facilities in Maryland. GSA OIG
agents arrested Wilkinson on September 5, 2013, and Roberts on September 10, 2013.
Both have since pled guilty to bribery of public officials.


Seven People and Two Companies Pled Guilty in Bribery Investigation in
Southern California

A joint investigation by the GSA OIG, the FBI, Defense Criminal Investigative Service
(DCIS), Naval Criminal Investigative Service (NCIS), IRS Criminal Investigation (CI), SBA
OIG, and the U.S. Attorney’s Office (USAO) San Diego, California, discovered that GSA
and Department of Defense (DOD) subcontractors paid kickbacks to prime contractors
and at least one government official in order to receive GSA and DOD subcontracts.
The recipients then structured bank deposits under $10,000 to avoid detection by
authorities, in violation of money laundering statutes. The scheme impacted the award
of multiple federal contracts worth several million dollars.

Recently, Hugo Alonso, the Owner of Hugo Alonso, Inc., a Southern California
construction company; Bayani Abueg, the owner MBR Associates, a Southern
California construction contractor; Gerardo Mercado and Raul Mercado, co-owners of
Blue Ocean Construction; Paul Kay, the owner of PKI Construction; Manuel Ramirez,
Owner of MRN Construction; and Natividad Cervantes, a former U.S. Navy employee,
all pled guilty to bribery and conspiracy charges. Hugo Alonso, Inc. and MBR
Associates pled guilty as corporations. A tenth subject, Minh Nguyen, the owner of
MBN Group, pled not guilty and will proceed to trial at a later date.


Former Owner of Taunton Forms and Construction Pled Guilty to
Conspiracy and False Statements

After the GSA OIG received a Hotline complaint alleging violations of the Davis-Bacon
Act, it began an investigation which determined that from December 2007 to July 2010,
the owner of Taunton Forms and Construction, of Lakeville, MA, and one of the
company’s project managers devised a scheme to pay workers less than the federally
required prevailing wage and to avoid making contractually required fringe benefit
payments to labor union benefit plans. Taunton was a subcontractor on a GSA project.
As a further part of the scheme, the owner and project manager conspired to recruit
unionized cement masons from another company to work on the GSA project and to pay
them under the table, using money paid to the project manager under false names. They
also conspired to falsify to the Massachusetts Department of Unemployment Assistance
that employees had been laid off or their hours reduced, permitting those employees to
supplement their reduced wages with unemployment benefits while they worked on the
GSA project and other projects. The owner and project manager pled guilty to one count
each of conspiracy to commit mail fraud and false statements.




36                      OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
SIGNIFICANT INVESTIGATIONS




Two Convicted in 8(a) Disadvantaged Business Investigation in Maryland

A joint investigation conducted by the GSA OIG, DCIS, SBA OIG, and IRS CI disclosed
that Vernon J. Smith III conspired with Anthony Wright to create a fraudulent 8(a)
disadvantaged minority owned business, Platinum One Contracting, Inc. (Platinum),
of Hyattsville, MD, with Wright listed as the president and owner. In reality, Wright
was merely a figurehead used to obtain 8(a) status, and Smith was the individual who
controlled the day-to-day management and finances of Platinum. Platinum submitted
false documents to the SBA in order to gain 8(a) status and obtained over $50 million
in 8(a) set-aside contracts with GSA, DOD, and other agencies. The investigation also
determined that Smith filed false tax returns in connection with the 8(a) scheme. On
March 28, 2014, Smith pled guilty to conspiracy to defraud the United States. Wright
had already pled guilty to making false statements in June of 2013.


White House Electrician Resigns after Misuse of Government Telephone

A GSA electrician assigned to the White House Service Center retired from federal
service following a GSA OIG investigation that revealed he used his government-issued
cell phone to make unauthorized personal calls to the Dominican Republic and to
information services. The total loss to the government is approximately $2,000, which
GSA OGC is seeking to recoup.


GSA Employee Suspended for Violation of Anti-Nepotism Laws

A GSA employee was suspended for seven days for nepotism. The employee had
successfully advocated for GSA to hire her daughter. Both a GSA Reviewing Official
and a GSA Selecting Official who acknowledged being influenced by the referral
received a letter of reprimand for their respective personnel files.


Army Corporal and Wife Sentenced to Federal Prison for Theft

After a GSA employee reported the suspicious delivery of items ordered through the
GSA Advantage, GSA OIG and Army CID began a joint investigation, which determined
that former Army Corporal Bo Dukes placed orders through GSA Advantage for
$150,000 worth of property, billed to the Army, which Dukes then pawned or sold. GSA
OIG Special Agents were able to recover some of the items and return them to the
Army. On October 4, 2013, Dukes was sentenced to 27 months in federal prison and
three years’ probation for conspiracy to steal. He was also ordered to pay restitution
in the amount of $134,328. Dukes’s co-conspirator, his wife Emily Irene Dukes, was
sentenced on the same date to six months in federal prison and three years’ probation.




OCTOBER 1, 2013 – MARCH 31, 2014                                                    37
                                                                   SIGNIFICANT INVESTIGATIONS




Director of Small Business Development at Caddell Construction Pays
$2 Million Settlement

While Caddell Construction was working as the prime contractor on the GSA’s Zorinsky
Federal Building Renovation Project in Omaha, NE, it had one of its subcontractors
pretend to be Mountain Chief Management Services, a Native-owned minority
contractor. Caddell reported this as compliance with the minority subcontracting
goals in its government contract. The investigation later discovered that Caddell falsely
claimed Mountain Chief Management Services as a subcontractor on other contracts
as well, in order to receive money under the DOD Indian Incentive Program (IIP) and
the Mentor-Protégé Program (MPP). Caddell fraudulently obtained approximately $1.3
million dollars in federal funds.

Mark Hill, Caddell’s Director of Small Business Development, was in charge of
administering Caddell’s MPP program and also worked on its IIP projects. On July
30, 2013, Hill was found guilty of making false statements to the federal government.
He was sentenced to one year of probation and ordered to pay a $100 special
assessment. Caddell subsequently paid a criminal settlement of $2 million and a civil
settlement of $1.5 million.


U.S. Army Official Pleads Guilty to Conversion of Public Property

A civilian Army employee in Utah pled guilty to conversion of public property for illegally
receiving gratuities, including a 42-inch flat-screen television, a Bowflex home gym,
and a television surround sound system. The defendant was sentenced to one year
of bench probation and 20 hours of community service, and ordered to pay a $50
assessment to the court and return the gratuities.


Two City Officials Plead Guilty to Illegally Converting Federal Excess Property

A joint investigation by the GSA OIG and the FBI revealed that two city officials in
Alaska stole approximately $1 million in federal property that was acquired through
GSA’s Federal Excess Personal Property Utilization Program on behalf of the
municipality that employed the two officials. The two pled guilty in the United States
District Court for the District of Alaska (Fairbanks) to wire fraud and theft. They will be
sentenced in June 2014.




38                        OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
SIGNIFICANT INVESTIGATIONS




California Man Pleads Guilty to Defrauding GSA’s CFL Program

A joint investigation by the GSA OIG and IRS CI, Department of Transportation OIG, VA
OIG, Department of Energy OIG, Department of Justice OIG, and the FBI revealed that
a California resident fraudulently acquired computer equipment with a total acquisition
value of approximately $30 million through GSA’s Computers for Learning (CFL)
program. The CFL program allows government agencies to transfer excess computer
equipment to schools and educational nonprofit organizations. The defendant created
multiple fictitious charitable entities, and then falsely certified to GSA that these entities
were eligible recipients under the CFL program. He pled guilty to wire fraud, aggravated
identity theft, and filing a false tax return, and will be sentenced in April 2014.


Former Alaska State Official Pled Guilty to Defrauding GSA’s Property
Donation Program

A joint investigation by the GSA OIG, the FBI, and IRS CI determined that Kenneth
Browning, the Federal Property Allocation Officer for the Alaska State Agency for
Surplus Property (SASP), illegally diverted over $25 million in surplus property that
was transferred to the SASP for donation and sold it for his own profit. Browning was
responsible for allocating surplus federal property donated through GSA’s Federal
Surplus Property Donation Program to eligible state recipients. He concealed the theft
by falsifying compliance records and failing to accurately account for donated property.
Special agents were able to trace the sales of stolen items and find the locations where
Browning stored many of the items. Browning pled guilty to six counts of wire fraud
and four counts of filing a fraudulent tax return in the United States District Court for the
District of Alaska (Anchorage).


U.S. Army Colonel Ordered To Forfeit $6,000 after Being in Violation of
Article 107 of the UCMJ

Following a referral by GSA’s Loss Prevention Team, GSA OIG Special Agents
determined that Colonel David Chase, who was assigned to the Army’s ROTC cadre
at Virginia Polytechnic Institute and State University, submitted a false memorandum
regarding the loss of his assigned vehicle log in an attempt to disguise his personal
use of a GSA government fleet credit card. On December 17, 2013, he was ordered to
forfeit $6,000 in pay after being charged with making false statements in violation of
Article 107 of the Uniform Code of Military Justice (UCMJ). Following the sentence, on
January 6, 2014, Chase voluntarily retired from military service.




OCTOBER 1, 2013 – MARCH 31, 2014                                                           39
                                                                    SIGNIFICANT INVESTIGATIONS




17 Army Soldiers Involved in Fort Story GSA Government Fleet Credit
Card Scheme

In December 2012, after the GSA Loss Prevention Team reported suspicious odometer
entries and back-to-back over-tank gasoline purchases made from a single fleet card,
GSA OIG Special Agents (in collaboration with the Army CID) began an investigation
into government fleet card use at Fort Story, VA. They determined that 17 soldiers were
involved in a systemic fraud ring. In the past six months, the following developments
occurred in the case:

      >> On October 3, 2013, Army Sergeant Christopher M. Taylor pled guilty to theft
         and conspiracy.

      >> On November 4, 2013, eight soldiers made their initial court appearance after
         being charged with theft. They all agreed to enter the pre-trial diversion program.

      >> On December 12, 2013, Army Specialist Shaniqua Westmoreland pled guilty to
         theft and was sentenced to one year of probation, and ordered to pay restitution,
         a fine, and a special assessment.

      >> On January 7, 2014, Sergeant Taylor was sentenced to two months of
         imprisonment, two months of home confinement, and three years’ supervised
         release, and ordered to pay $7,496 in restitution.

      >> On January 16, 2014, Army Specialist Yasser Tarka and Army Sergeant
         Tony Ballard pled guilty to federal misdemeanor theft violations. Each was
         sentenced to six months’ probation and ordered to pay restitution, a fine, and a
         special assessment.


DHS Driver Arrested for Misuse of GSA Government Fleet Credit Card

On February 26, 2014, GSA OIG and DHS OIG Special Agents arrested a DHS contract
driver for fraud involving a GSA fleet credit card. Investigation had revealed that the
driver, assigned to DHS’s Nebraska Avenue Center, was using the fleet card to fuel his
personal vehicle. After special agents confronted the contractor, he admitted to using
fleet cards for personal use on several occasions over the past year. The loss to the
government was determined to be $3,930.


U.S. Army Soldier Received UCMJ Punishment for GSA Government Fleet
Credit Card Fraud

An Army Sergeant stationed at Moffet Field, CA, was punished under to the UCMJ
after he admitted he used a GSA fleet credit card to purchase fuel for his privately
owned vehicles. The estimated loss to the government was approximately $2,249.




40                          OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
SIGNIFICANT INVESTIGATIONS




U.S. Department of Labor Employee with Over 29 Years of Government Service
Arrested for GSA Government Fleet Credit Card Fraud

After the GSA Loss Prevention Team identified suspicious transactions associated with
three fleet cards assigned to the Department of Labor (DOL) in Philadelphia, PA, a joint
investigation by the GSA OIG and DOL OIG determined that a 29-year DOL employee
used her position to steal fleet cards and provide them to a family friend, who then
used them to make fraudulent purchases of fuel for private use. After the fleet cards
were fraudulently used by her co-conspirator, the DOL employee would return them
to the DOL office to avoid suspicion. The total loss was estimated at $4,100. The DOL
employee was recently arrested on theft and conspiracy charges.


U.S. Department of Labor Employee Arrested for GSA Government Fleet
Credit Card Fraud

After the GSA Loss Prevention Team identified suspicious transactions associated with
fleet cards assigned to several GSA vehicles leased to the DOL in upstate New York,
a joint investigation by the GSA OIG and the DOL OIG disclosed that a DOL employee
used the fleet cards to purchase fuel for personal vehicles (and for associates in
exchange for cash), resulting in a loss to the government of approximately $1,378. On
December 5, 2013, the DOL employee was arrested for fraudulently using multiple GSA
government fleet credit cards to purchase fuel for his personal vehicles. The employee
was charged with theft and fraud under New York state law.


Amtrak Engineering Department Involved in Misuse of the GSA
Government Fleet Credit Card

GSA OIG received information from the GSA Loss Prevention Team regarding
suspicious fleet card transactions for a GSA leased vehicle assigned to the Amtrak
Engineering Department’s Electric Traction Division in Guilford, CT. An investigation
revealed that Amtrak personnel misused the fleet card for purchases other than for the
vehicle assigned. Therefore, on March 21, 2014, GSA billed Amtrak $5,597 for misuse
of the card.


Air Force Recruiter Found Guilty of Fraudulent Use of the GSA Government
Fleet Credit Card

The GSA Loss Prevention Team reported that two GSA government fleet credit
cards assigned to a U.S. Air Force recruiting squadron had been used for suspicious
purchases. A GSA OIG investigation revealed that Senior Airman Chad Hill, a recruiter
in the squadron, unlawfully used the fleet cards on numerous occasions to purchase
fuel for his personal vehicle. Hill was convicted by a court martial of Larceny and Failure
to Obey Regulations, and sentenced to three months of confinement and a forfeiture of
pay in the amount of $3,032.




OCTOBER 1, 2013 – MARCH 31, 2014                                                        41
                                                                   SIGNIFICANT INVESTIGATIONS




Tribal Employee Sentenced for Theft

On March 12, 2014, an employee of the Pascua Yaqui Health Department in Tucson,
AZ, was sentenced to probation and restitution in the amount of $27,620 for using a
GSA government fleet credit card to purchase fuel for his privately owned vehicles.


Other Recoveries

During this reporting period, the GSA OIG conducted several investigations which
resulted in multiple significant non judicial recoveries. Our investigative efforts
successfully included a $1.2 million recovery with a GSA contractor that provided
insufficient commercial sales practices data to the GSA during the renewal of their
GSA MAS contract. GSA OIG also successfully recovered $1.2 million and $725,000,
respectively, from two GSA contractors for violations of the price reduction clause of
their GSA MAS contract. Our investigative work also led to a $645,000 recovery from
a GSA contractor for falsely billing the government for unqualified labor hours. Other
recoveries included a significant investigation in which our investigative efforts led to the
recovery of $7.3 million dollars of military aircraft equipment.


WPA Era Art Recovery Efforts

As a direct result of the cooperative efforts between the GSA OIG and the GSA,
Office of the Chief Architect, Fine Arts Division, a total of fourteen lost pieces of Works
Progress Administration (WPA) artwork were recovered during this reporting period.
These pieces of American history are not subject to public sale, but their comparative
value totals $1,084,800. Their historic value is immeasurable. Twelve pieces have been
put on a long-term loan with the City of Monterey, CA, where they are on public display
as originally intended. Since the inception of cooperative recovery efforts, 201 WPA
pieces have been recovered, with a total value of $3,762,150.


Suspension and Debarment Initiative

GSA has a responsibility to ascertain whether the people or companies it does business
with are eligible to participate in federally-assisted programs and procurements, and
that they are not considered “excluded parties.” Excluded parties are declared ineligible
to receive contracts by a federal agency. The FAR authorizes an agency to suspend or
debar individuals or companies for the commission of any offense indicating a lack of
business integrity or business honesty that directly affects the present responsibility of
a government contractor or subcontractor. The OIG has made it a priority to process
and forward referrals to GSA so GSA can ensure that the government does not award
contracts to individuals or companies that lack business integrity or honestly.

During this reporting period, the OIG made 85 referrals for consideration of suspension/
debarment to the GSA Office of Acquisition Policy. GSA issued 99 actions based on
current and previous OIG referrals.




42                       OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
SIGNIFICANT INVESTIGATIONS




Integrity Awareness

The OIG presents Integrity Awareness Briefings nationwide to educate GSA
employees on their responsibilities for the prevention of fraud and abuse. This period,
we presented 19 briefings attended by 253 regional and central office employees.
These briefings explain the statutory mission of the OIG and the methods available for
reporting suspected instances of wrongdoing. In addition, through case studies, the
briefings make GSA employees aware of actual instances of fraud in GSA and other
federal agencies and thus help to prevent their recurrence. GSA employees are the first
line of defense against fraud, abuse, and mismanagement. They are a valuable source
of successful investigative information.


Hotline

The OIG Hotline provides an avenue for employees and other concerned citizens to
report suspected wrongdoing. Hotline posters located in GSA-controlled buildings
encourage employees to use the Hotline. Our FraudNet electronic reporting system
also allows internet submission of complaints. During this reporting period, we
received 1402 Hotline contacts. Of these, 35 were referred to GSA program officials
for review and appropriate action, 43 were referred to other federal agencies, two were
referred to the OIG Office of Audits, and 33 were referred internally for investigation or
further review.




OCTOBER 1, 2013 – MARCH 31, 2014                                                            43
                                                FORENSIC AUDITING, EVALUATION, AND ANALYSIS




Forensic Auditing, Evaluation,
and Analysis
The Office of Forensic Auditing, Evaluation and Analysis provides the Inspector General
with the means to independently and objectively analyze and evaluate GSA’s programs
and operations through management and programmatic inspections and evaluations
that are intended to provide insight into issues of concern to GSA, Congress, and
the American public; review and evaluate presumptive and/or current fraudulent and
criminal activities through the use of forensic auditing skills, tools, techniques, and
methodologies; and formulate, direct, and coordinate the quality assurance function
of the OIG, to include the OIG’s Federal Managers’ Financial Integrity Act (FMFIA)
program, encompassing the Annual Assurance Statement and cyclical Internal Control
Reviews. Finally, the office houses the OIG Records Officer, providing guidance and
assistance OIG-wide on records management issues.

During this reporting period, operations included providing assistance on six Office of
Investigations cases, as well as technical expertise on the Office of Audits 2013 FISMA
vulnerability scanning. The office initiated one new evaluation, and continued evaluative
and proactive work focusing on data analysis of potentially fraudulent activity.




44                      OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
Government-Wide
Policy Activities
GOVERNMENT-WIDE POLICY ACTIVITIES




Government-Wide Policy Activities
We regularly provide advice and assistance on government-wide policy matters to the
Agency, as well as to other federal agencies and committees of Congress. In addition,
as required by the IG Act of 1978, we review existing and proposed legislation and
regulations to determine their effect on the economy and efficiency of Agency’s programs
and operations and on the prevention and detection of fraud and mismanagement.
Because of the central management role of the Agency in shaping government-wide
policies and programs, most of the legislation and regulations reviewed invariably affect
government-wide issues such as procurement, property management, travel, and
government management and IT systems. To ensure the auditors’ independence when
performing subsequent audit work, we participate in Agency task forces, committees,
and working groups in an observer or advisor capacity.


Legislation, Regulations, and Subpoenas
During this reporting period, the OIG reviewed numerous legislative matters and
proposed regulations. We also responded to requests from Members of Congress on
behalf of their constituents as well as Congressional committees. The OIG also made
substantive comments on several proposed laws and regulations. Additionally, we issued
47 subpoenas in support of our audit, inspection, evaluative, and investigative work.


Interagency and Intra-agency Committees and Working Groups
   >> Council of the Inspectors General on Integrity and Efficiency (CIGIE). The IG is
      a member of the Investigations Committee and Homeland Security Roundtable.
      The IG is also the liaison between CIGIE and the Federal Chief Acquisition
      Officers Council.

      –– CIGIE Disaster Assistance Working Group. On January 29, 2013 the
         President signed into law the Disaster Relief Appropriations Act of 2013
         (P.L. 113–2), which provides fiscal year 2013 supplemental appropriations
         to respond to and recover from the damage caused by Hurricane Sandy. It
         provides funds to eighteen federal agencies (GSA received $7M) and directs
         their OIGs to oversee the use of these funds. As a member, the GSA OIG will
         work with the Group to develop and use information technology resources and
         oversight mechanisms to detect and remediate waste, fraud, and abuse as
         these appropriated funds are obligated and expended.

      –– Federal Audit Executive Council Information Technology Committee. The
         Office of Audits participates in the Federal Audit Executive Council Information
         Technology Committee. This Committee provides a forum to share information
         and coordinate audits of significant IT issues to the OIG community and the
         federal government. The committee also develops and recommends best
         practices to be used by OIGs in addressing IT issues.




OCTOBER 1, 2013 – MARCH 31, 2014                                                      47
                                                           GOVERNMENT-WIDE POLICY ACTIVITIES




        –– CIGIE Professional Development Committee’s Leadership Development
           Subcommittee. The Office of Counsel participates in the Leadership
           Development Subcommittee, which serves as the liaison between the CIGIE
           Professional Development Committee and the CIGIE Training Institute’s
           Leadership and Mission Support Academy. The subcommittee is a working
           group that promotes high quality leadership and mission support training,
           education, and professional development throughout the CIGIE community.

        –– CIGIE Investigation Committee’s Suspension and Debarment Working
           Group. The Office of Investigations participates in the CIGIE Suspension
           and Debarment working group which promotes the use of suspension
           and debarment within the CIGIE community and provides educational
           opportunities.

      >> Public and Private Sector Outreach. During this reporting period, the IG
         continued to reach out to both the public and private sectors as part of an
         effort to prevent, detect, and deter procurement fraud. This outreach has
         promoted communication, coordination, and cooperation among accountability
         professionals to foster effectiveness and efficiency of government oversight.
         Organizations that the IG made presentations to or had discussions with include
         the American Bar Association, Coalition for Government Procurement, Ethics
         Resource Center, Association of Certified Fraud Examiners, Compliance Week,
         Boston Federal Executive Board, and the City and County of San Francisco.
         During this reporting period, OIG senior staff members met with officials from the
         Japanese government and embassy to discuss the role and work of the OIG.

      >> TeamMate Technical Support Group. As part of our mission to address some
         of the complex integration and security issues surrounding E-Gov and the use
         of information technology, the TeamMate Technical Support Group participates
         in the TeamMate Federal Users Group and the Commerce Clearing House
         TeamMate Users Group to discuss concerns and challenges facing TeamMate
         users. TeamMate is an automated audit workpaper management system that
         strengthens the audit process, increases the efficiency and effectiveness of our
         auditors and audits, and ultimately leads to more robust, quality audit products.

      >> Information Assurance Committee. The Office of Audits participates in the
         Office of the Chief Information Officer’s Information Assurance Committee. This
         committee oversees the development and implementation of enterprise security
         policy and makes recommendations on GSA’s IT security policies. The committee
         is comprised of representatives with information security responsibilities from the
         PBS, FAS, and staff offices. The OIG participates to monitor the progress of the
         Agency in meeting its information security performance metrics and goals.




48                          OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
Appendices
                                                   SECTION TITLE HERE




50   OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX I – SIGNIFICANT AUDITS FROM PRIOR REPORTS




Appendix I –
Significant Audits from Prior Reports
Under the Agency audit management decision process, the GSA Offices of
Administrative Services and the Chief Financial Officer are responsible for tracking the
implementation of audit recommendations after a management decision has been
reached. These offices furnished the following status information.

Eight audits identified in prior reports to the Congress include recommendations that
have not yet been fully implemented. These recommendations are being implemented
in accordance with currently-established milestones.


Audit of GSA’s Controls over the National Capital Region’s Reimbursable
Work Authorization

Period First Reported: April 1 to September 30, 2013

The objective was to determine if GSA’s controls over Reimbursable Work Authorizations
(RWAs), as implemented by the National Capital Region (NCR), ensure compliance with
applicable polices and laws. The report contained two recommendations, which have not
been implemented.

The recommendations involve: (1) developing and implementing a plan to ensure existing
controls are consistently applied at all NCR service centers and identifying internal
control system weaknesses to improve RWA management; and (2) clarifying and actively
managing the policy regarding RWAs to ensure that the service centers apply the
policy consistently, and that RWAs are authorized at the appropriate levels throughout
the NCR service centers. The recommendations are scheduled for completion by
January 15, 2015.


Audit of GSA’s Award and Administration Center of Excellence Task Orders,
Pacific Rim Region, Federal Acquisition Service

Period First Reported: April 1 to September 30, 2013

The objective was to determine whether GSA adequately awarded and administered
the two Center of Excellence task orders in accordance with the Federal Acquisition
Regulation and internal procedures and policies. The report contained nine
recommendations; one has not been implemented.

The remaining recommendation involves obtaining supporting documentation to validate
that all task order subtasks were addressed by the contractor and attempt to recoup
funds for subtasks not performed. The recommendation is scheduled for completion by
May 15, 2014.




OCTOBER 1, 2013 – MARCH 31, 2014                                                          51
                                         APPENDIX I – SIGNIFICANT AUDITS FROM PRIOR REPORTS




Audit of GSA’s Mobile Computing Initiatives

Period First Reported: April 1 to September 30, 2013

The objective was to determine whether GSA’s implementation of initiatives for mobile
devices and mobile applications was consistent with its information technology strategic
goal for access to GSA systems from Any Location, Anytime, and Any Device and the
White House’s Digital Government Strategy. The report contained four recommendations;
one has not been implemented.

The remaining recommendation involves ensuring that currently deployed mobile
applications meet the updated standards. The recommendation is scheduled for
completion by July 15, 2014.


Follow-up Audit of GSA’s Acquisition of Services for the International
Trade Center at the Ronald Reagan Building: PBS’s Oversight of
Contract Requirements

Period First Reported: October 1, 2012, to March 31, 2013

The objective was to determine if the Public Buildings Service (PBS) performed effective
oversight of the requirements related to minimum revenue guarantees and deliverables
in the contract for management and operation of the International Trade Center at the
Ronald Reagan Building. The report contained four recommendations; one has not
been implemented.

The remaining recommendation involves PBS acting in accordance with PBS’s plan
to address preaward competition concerns. The recommendation is scheduled for
completion by November 15, 2014.


Audit of the General Services Administration’s FY 2012 Financial Statements

Period First Reported: October 1, 2012, to March 31, 2013

The objective was to conduct an audit of GSA’s consolidated balance sheet, the
individual balance sheets of the Federal Buildings Fund and the Acquisition Services
Fund, the related consolidated and individual statement of net cost, the changes in net
position, and the combined and individual statements of budgetary resources for fiscal
year 2012. The report contained 98 recommendations; 11 have not been implemented.




52                      OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX I – SIGNIFICANT AUDITS FROM PRIOR REPORTS




The 11 remaining recommendations involve: (1) implementing a review process to ensure
that the system Funding and Spending controls are turned off for a valid reason and
turned back on after processing; (2) continuing the assessment of the Agency’s financial
information technology infrastructure with the objective of improving the effectiveness of
information technology controls, both general and application and of timely and accurate
financial reporting; (3) instituting policies and procedures to ensure that the delivery date
or period of performance is stated on all obligation documents; (4) training the contracting
officers to understand the need and the requirement to obtain the proper certifications of
funds availability from the certifying official before signing any obligation; (5) implementing
the Accounting for Environmental Guidelines in fiscal year 2013; (6) providing additional
training to reinforce existing policies and procedures, which require proper authorization
and approval of contracts prior to recording the obligations in the financial management
system; (7) performing regular verification of the assets listing in the Fixed Asset
subsidiary ledger; (8) developing and delivering training on an ongoing basis to ensure
appropriate asset classification codes are used for each building entered into the Real
Estate Across the United States (REXUS) system; (9) performing regular verifications of
the assets listed in the Fixed Assets subsidiary ledger; (10) enforcing policies with the
regions to ensure that all RWAs are recorded in the RWA Entry and Tracking Application
(RETA) timely and accurately; and (11) recommending the OCFO General Support System
(GSS) owner develop and document procedures to require that operating system logs
are periodically reviewed for inappropriate activity. The recommendations are scheduled
for completion by August 30, 2014.


Audit of PBS’s Major Construction and Modernization Projects,
Modifications at 50 UN Plaza Renovation Project

Period First Reported: October 1, 2012, to March 31, 2013

The objective of the Office of Inspector General’s Recovery Act oversight is to
determine if PBS is planning, awarding, and administering contracts for major
construction and modernization projects in accordance with prescribed criteria and
Recovery Act mandates. The report contained four recommendations; three have not
been implemented.

The remaining recommendations involve: (1) notifying Congress and the Office of
Management and Budget (OMB) of inaccurate Recovery Act financial reporting on the
50 UN Plaza project caused by an invalid obligation; (2) notifying Congress and OMB of
the use of Minor R&A funds to supplement the 50 UN Plaza project; (3) and obtaining
funding from other GSA components for the cost of tenant-requested improvements.
The recommendations are scheduled for completion by April 30, 2014.




OCTOBER 1, 2013 – MARCH 31, 2014                                                            53
                                          APPENDIX I – SIGNIFICANT AUDITS FROM PRIOR REPORTS




Limited Scope Audit of Invalid Obligations and Contingency Funding for
Recovery Act Projects

Period First Reported: October 1, 2012, to March 31, 2013

The objective of this audit was to alert GSA management that Recovery Act funds were
being invalidly obligated on multiple projects through contract modifications being used
for contingency and, as a result, Recovery Act reporting has been inaccurate and the
invalidly obligated funds have expired and will be rescinded. The report contained three
recommendations; two have not been implemented.

The remaining recommendations involve: (1) notifying OMB that Recovery Act funds
have been invalidly obligated and that past reporting of obligations has been inaccurate;
and (2) notifying Congressional Committees with jurisdiction as appropriate. The
recommendations are scheduled for completion between by May 15, 2014.


Audit of the General Services Administration’s FY 2011 Financial Statements

Period First Reported: October 1, 2011, to March 31, 2012

The objective was to conduct an audit of GSA’s consolidated balance sheet, the
individual balance sheets of the Federal Buildings Fund and the Acquisition Services
Fund, the related consolidated and individual statement of net cost, the changes in net
position, and the combined and individual statements of budgetary resources for fiscal
year 2011. The report contained 146 recommendations; one has not been implemented.

The remaining recommendation involves reviewing management’s acceptance of risk for
database vulnerabilities to assess the risks posed to the organization on an individual and
cumulative basis. The recommendation is scheduled for completion by March 31, 2014.




54                       OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
    APPENDIX II – AUDIT REPORT REGISTER




    Appendix II –
    Audit Report Register
                                                                                                                      FINANCIAL RECOMMENDATIONS
DATE OF         REPORT                                                                                            FUNDS BE PUT          QUESTIONED
REPORT          NUMBER           TITLE                                                                            TO BETTER USE     (UNSUPPORTED) COSTS

(Note: Because some audits pertain to contract awards or actions that have not yet been completed, the financial recommendations related to these reports
are not listed in this Appendix.)
PBS INTERNAL AUDITS

03/17/14        A120111          PBS Did Not Follow Internal Guidance for Congressional Notification and
                                 Violated Competition Requirements When Supplementing Funding of
                                 Recovery Act Projects

03/28/14        A130130          Implementation Review of Corrective Action Plan: Contract Administration
                                 for Group 10 Recovery Act Limited Scope and Small Construction Projects
                                 Report Number A090184/P/R/R12008, June 13, 2012
PBS CONTRACT AUDITS

01/17/14        A130104          Examination of a Final Settlement Proposal: Howard S. Wright Companies,
                                 Oregon Joint Venture, Contract Number GS‑10P‑09‑LT‑C‑0052

03/06/14        A140106          Examination of a Claim: Skanska USA Building, Inc. Contract Number
                                 GS‑04P‑09‑EX‑C‑0076

03/24/14        A130099          Examination of a Claim: HCBeck, Ltd., Contract Number
                                 GS‑07P‑09‑UY‑C‑0007
FAS INTERNAL AUDITS

10/31/13        A120124          Audit of FAS's Greater Southwest Acquisition Center ‑ Schedule 84 Pricing
                                 and Negotiation

02/05/14        A130113          Implementation Review of Corrective Action Plan: Audit of Management
                                 Controls Within the Network Services Division, Pacific Rim Region, Federal
                                 Acquisition Service, Report Number A110100/Q/9/P12009, Dated May 30,
                                 2012

03/31/14        A120169          Audit of the Postpayment Audit Process: Transportation Audits Division
                                 Federal Acquisition Service
FAS CONTRACT AUDITS

10/24/13        A130074          Preaward Examination of Multiple Award Schedule Extension: Salient Federal
                                 Solutions, Inc. Contract Number GS‑35F‑4704G

10/24/13        A130086          Preaward Examination of Multiple Award Schedule Contract Extension: Sea                                         $3,032
                                 Box, Inc. Contract Number GS‑02F‑0024P

10/24/13        A130087          Preaward Examination of Multiple Award Schedule Contract Extension:
                                 Accenture Federal Services LLC, Contract Number GS‑10F‑0608N

10/29/13        A130077          Preaward Examination of Multiple Award Schedule Contract Extension:                                               $162
                                 Intuitive Research and Technology Corporation, Contract Number
                                 GS‑23F‑0343N

10/31/13        A120117          Limited Scope Examination of Multiple Award Schedule Contract:                                               $640,986
                                 Hewlett‑Packard Company, Contract Numbers GS‑35F‑4663G and
                                 GS‑35F‑0066N




    OCTOBER 1, 2013 – MARCH 31, 2014                                                                                55
                                                                                                      APPENDIX II – AUDIT REPORT REGISTER




                                                                                                                 FINANCIAL RECOMMENDATIONS
DATE OF         REPORT                                                                                       FUNDS BE PUT         QUESTIONED
REPORT          NUMBER    TITLE                                                                              TO BETTER USE    (UNSUPPORTED) COSTS

11/04/13        A130090   Preaward Examination of Multiple Award Schedule Contract Extension:
                          Environmental Systems Research Institute, Contract Number GS‑35F‑5086H

11/13/13        A130075   Examination of a Claim: Booz Allen Hamilton, Inc. Task Order
                          GST0311DS7078

12/12/13        A130096   Preaward Examination of Multiple Award Schedule Contract Proposal:
                          Rodco‑Brandt Solicitation Number 3QSA‑JB‑100001‑B

12/12/13        A130079   Preaward Examination of Multiple Award Schedule Contract Extension:
                          Allsteel Inc., Contract Number GS‑28F‑0001V

12/20/13        A130073   Preaward Examination of Multiple Award Schedule Contract Extension:                                           $34,379
                          Torch Technologies, Inc., Contract Number GS‑23F‑0321N

12/20/13        A130088   Preaward Examination of Multiple Award Schedule Contract Extension:
                          Provengo LLC, Contract Number GS‑07F‑0049V

12/23/13        A130100   Preaward Examination of Multiple Award Schedule Contract Extension:
                          Cellco Partnership d/b/a Verizon Wireless, Contract Number GS‑35F‑0119P

01/24/14        A130080   Preaward Examination of Multiple Award Schedule Contract Extension:
                          Intelsat General Corporation, Contract Number GS‑35F‑0478U

01/27/14        A120143   Preaward Examination of Multiple Award Schedule Contract: Centra
                          Technology, Inc., Contract Number GS‑00F‑0020Y

01/30/14        A130084   Preaward Examination of Multiple Award Schedule Contract Extension:                                           $60,565
                          BAE Systems Information Solutions, Inc., Contract Number GS‑10F‑0007P

01/31/14        A130071   Preaward Examination of Multiple Award Schedule Contract Extension:                                          $306,596
                          Industries for the Blind, Inc., Contract Number GS‑02F‑0208N

02/03/14        A130105   Preaward Audit of Multiple Award Schedule Contract Extension:
                          Rockwell Collins, Inc., Contract Number GS‑35F‑5926H

02/18/14        A130137   Preaward Examination of Multiple Award Schedule Contract Extension:
                          HomeTelos, L.P., Contract Number GS‑23F‑0024V

02/24/14        A130046   Preaward Examination of Multiple Award Schedule Contract Extension:                                           $82,488
                          General Dynamics Advanced Information Systems, Inc., Contract Number
                          GS‑35F‑0717N

03/12/14        A130048   Postaward Audit of Multiple Award Schedule Contract: Intirion Corporation,                                   $569,834
                          Contract Number GS‑21F‑0091H

03/31/14        A130049   Preaward Examination of Multiple Award Schedule Contract Extension:
                          SimplexGrinnell LP, Contract Number GS‑06F‑0054N

03/31/14        A130114   Preaward Examination of Multiple Award Schedule Contract Extension:                                            $1,302
                          Ricoh USA, Inc., Contract Number GS‑03F‑0085U
OTHER INTERNAL AUDITS

12/19/13        A130013   Audit of the General Services Administration's Fiscal Year 2013 Financial
                          Statements




                          56                              OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX III – OIG REPORTS OVER 12 MONTHS OLD, FINAL AGENCY ACTION PENDING




Appendix III –
OIG Reports over 12 Months Old,
Final Agency Action Pending
Public Law 104–106 requires the head of a federal agency to complete final action on
each management decision required with regard to a recommendation in an Inspector
General’s report within 12 months after the date of the report. If the head of the Agency
fails to complete final action within the 12-month period, the Inspector General shall
identify the matter in the semiannual report until final action is complete.

In GSA, the Offices of Administrative Services and the Chief Financial Officer are
responsible for monitoring and tracking open recommendations. While we continue
to assist the Agency in resolving these open items, various litigative proceedings,
continuing negotiations of contract proposals, and corrective actions needed to
undertake complex and phased-in implementing actions often delay timely completion
of the final action.

The Offices of Administrative Services and the Chief Financial Officer provided the
following list of reports with action items open beyond 12 months:

DATE OF       REPORT
REPORT        NUMBER      TITLE
CONTRACT AUDITS

12/29/08      A090042     Postaward Audit Report on Direct Costs Incurred on Trilogy Project: Computer
                          Sciences Corporation, Contract Number GS00‑T99‑ALD204

1/20/09       A080136     Preaward Review of Multiple Award Schedule Contract Extension: Dynamic Decisions,
                          Inc., Contract Number GS‑35F‑5879H

4/27/09       A080210     Preaward Review of Multiple Award Schedule Contract Extension: ImmixTechnology,
                          Inc., Contract Number GS‑35F‑0330J

8/6/09        A090145     Preaward Review of Multiple Award Schedule Contract Extension: BTAS, Inc.,
                          Contract Number GS‑35F‑0546J

8/19/09       A090106     Preaward Review of Multiple Award Schedule Contract Extension: Perot Systems
                          Government Services, Inc., Contract Number GS‑00F‑0049M

8/21/09       A080030     Preaward Review of Multiple Award Schedule: Hewlett‑Packard Company, Solicitation
                          Number FCIS‑JB‑980001‑B

8/21/09       A090090     Preaward Review of Multiple Award Schedule Contract Extension: Ezenia, Inc.,
                          Contract Number GS‑35F‑0475P

9/4/09        A090254     Report on Audit of Parts of a Firm Fixed Price Proposal for Architectural and
                          Engineering Services on the New St. Elizabeth's West Campus of the U.S. Department
                          of Homeland Security Headquarters and Consolidated National Operations Center:
                          Greenhorne & O'Mara, Inc., Solicitation Number GS11‑P08‑MKC0080

9/9/09        A090232     Report on Audit of Parts of a Firm Fixed Price Proposal for Architectural and
                          Engineering Services on the new St. Elizabeth's West Campus of the United
                          States Department of Homeland Security Headquarters and Consolidated National
                          Operations Center in Washington, DC: Haley & Aldrich, Inc., Solicitation Number
                          GS11‑P08‑MKC0079

9/10/09       A090234     Report on Audit of Direct Labor Rates, Indirect Rates, and Other Direct Costs
                          Portion of Subcontract Proposal: HDR Architecture, Inc., Solicitation Number
                          GS11‑P08‑MKC0079




OCTOBER 1, 2013 – MARCH 31, 2014                                                                           57
                    APPENDIX III – OIG REPORTS OVER 12 MONTHS OLD, FINAL AGENCY ACTION PENDING




DATE OF    REPORT
REPORT     NUMBER       TITLE

11/9/09    A090202      Preaward Review of Multiple Award Schedule Contract Extension: Computech, Inc.,
                        Contract Number GS‑35F‑0108K

12/10/09   A090159      Preaward Review of Multiple Award Schedule Contract Extension: RCF Information
                        Systems, Inc., Contract Number GS‑35F‑0613J

6/23/10    A090222      Preaward Review of Multiple Award Schedule Contract Extension: Force 3, Inc.,
                        Contract Number GS‑35F‑0785J

6/24/10    A090108      Preaward Review of Multiple Award Schedule Contract Extension: Integrated Data
                        Services, Inc., Contract Number GS‑35F‑0272J

7/6/10     A080070      Preaward Review of Multiple Award Schedule Contract Extension: Accenture, LLP,
                        Contract Number GS‑35F‑4692G

8/16/10    A090130      Limited Review of Multiple Award Schedule for the Period January 8, 2002 to
                        November 7, 2005: Cort Business Furniture, Contract Number GS‑28F‑7018G

8/24/10    A090140      Postaward Review of Multiple Award Schedule Contract: Systems Research and
                        Applications Corporation, Contract Number GS‑35F‑0735J

9/15/10    A080124      Limited Scope Postaward Review For the Period July 1, 2003 to December 29, 2008:
                        ASAP Software Express, Inc., Contract Number GS‑35F‑4027D

9/16/10    A100148      Examination of a Change Order Proposal: Alutiiq International Solutions, LLC,
                        Contract Number GS‑08P‑08‑JF‑C‑0005

10/7/10    A100117      Preaward Examination of Multiple Award Schedule Contract Extension: Dun &
                        Bradstreet, Inc., Contract Number GS‑22F‑9614D

10/12/10   A100156      Examination of a Claim: Acousti Engineering Company of Florida, Subcontractor to
                        Dick Corporation, Contract Number GS‑04P‑01‑EXC‑0044

10/27/10   A090133      Limited Scope Postaward Review of Multiple Award Schedule For the Period July 29,
                        2002 to September 9, 2008: SeaArk Marine, Inc., Contract Number GS‑07F‑0012J

11/24/10   A090192      Preaward Review of Multiple Award Schedule Contract Extension: SHI International
                        Corporation, Contract Number GS‑35F‑0111K

11/24/10   A100193      Postaward Audit of Multiple Award Schedule Contract Extension: The Stratix
                        Corporation, Contract Number GS‑35F‑0805R

12/27/10   A100172      Preaward Examination of Multiple Award Schedule Contract Extension: New England
                        Woodcraft, Inc., Contract Number GS‑27F‑0005L

1/27/11    A100075      Preaward Review of Multiple Award Schedule Contract Extension: Cort Business
                        Services Corporation, Contract Number GS‑28F‑7018G

1/27/11    A100213      Examination of a Claim: Cobb Mechanical Contractors, Subcontractor to Caddell
                        Construction Company, Incorporated, Contract Number GS‑07P‑05‑UEC‑3003

2/2/11     A100171      Examination of a Claim: Layton Construction Company, Inc., Contract Number
                        GS‑08P‑07‑JFC‑0016

3/29/11    A100114      Preaward Review of Multiple Award Schedule Contract Extension: Ahura Scientific,
                        Inc., Contract Number GS‑07F‑6099R

5/10/11    A110073      Preaward Examination of Multiple Award Schedule Contract Extension: PPS Infotech,
                        LLC, Contract Number GS‑35F‑0372L

5/12/11    A100221      Preaward Examination of Multiple Award Schedule Contract Extension: Mainline
                        Information Systems, Inc., Contract Number GS‑35F‑0216L

5/12/11    A110044      Preaward Examination of Multiple Award Schedule Contract Extension: Vaisala, Inc.,
                        Contract Number GS‑25F‑6029D




58                        OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX III – OIG REPORTS OVER 12 MONTHS OLD, FINAL AGENCY ACTION PENDING




DATE OF      REPORT
REPORT       NUMBER       TITLE

5/16/11      A110063      Postaward Examination of Multiple Award Schedule For the period January 1, 2008
                          to December 31, 2010: IntelliDyne, LLC, Contract Number GS‑35F‑0554K

5/17/11      A100183      Examination of a Claim: Moshe Safdie and Associates, Inc., Contract Number
                          GS‑01P‑99‑BWC‑0016

6/1/11       A110070      Examination of a Claim: Bergelectric Corporation, Subcontractor to Caddell
                          Construction Co., Inc., Contract Number GS‑07P‑05‑UEC‑3003

6/1/11       A110087      Preaward Examination of Multiple Award Schedule Contract Extension: National
                          Interest Security Company, LLC, Contract Number GS‑25F‑0032L

6/7/11       A090112      Postaward Review of Multiple Award Schedule Contract for the Period March 20,
                          1998, through April 30, 2008: ITS Services, Inc., Contract Number GS‑35F‑5518H

6/10/11      A110115      Preaward Examination of Multiple Award Schedule Contract Extension: Pacific Star
                          Communications, Inc., Contract Number GS‑35F‑0031L

6/13/11      A110108      Preaward Examination of Multiple Award Schedule Contract Extension: Protective
                          Products Enterprises, Contract Number GS‑07F‑9029D

6/30/11      A090045      Limited Scope Postaward Review of Multiple Award Schedule for the Period January
                          01, 2005 to July 31, 2007: C‑Tech Industries, Inc., Contract Number GS‑07F‑0496T

7/6/11       A110098      Examination of a Claim: KenMor Electric Company, L.P., Subcontractor to W.G. Yates
                          & Sons Construction Company, Contract Number GS‑07P‑05‑URC‑5007

7/7/11       A100140      Preaward Review of Multiple Award Schedule Contract Extension: Veterans Imaging
                          Products, Inc., Contract Number GS‑14F‑0005L

7/8/11       A110132      Preaward Examination of Architect‑Engineer Proposal: R.A. Heintges & Associates,
                          Subcontractor to Smith‑Miller & Hawkinson Architects, LLP, Solicitation Number
                          GS‑11P‑10‑MKC‑0050

7/8/11       A110132      Preaward Examination of Architect‑Engineer Proposal: Smith‑Miller & Hawkinson
                          Architects, LLP, Solicitation Number GS‑11P‑10‑MKC‑0050

7/14/11      A110140      Preaward Examination of Architect/Engineering Proposal: Lehman Smith McLeish,
                          PLLC, Subcontractor to Smith‑Miller & Hawkinson Architects LLP, Solicitation Number
                          GS‑11P‑10‑MKC‑0050

7/27/11      A100170      Examination of a Claim: Caddell Construction Company, Incorporated, Contract
                          Number GS‑07P‑05‑UEC‑3003

7/27/11      A110109      Preaward Examination of Multiple Award Contract Extension: Security Consultants
                          Group Incorporated, Contract Number GS‑07F‑0267L

7/28/11      A110088      Postaward Examination of Multiple Award Schedule for the Period January 1,
                          2009, to December 31, 2010: Global Protection USA, Inc., Contract Number
                          GS‑07F‑6028P

8/3/11       A100119      Preaward Review of Multiple Award Schedule Contract Extension: Noble Sales Co.,
                          Inc., Contract Number GS‑06F‑0032K

8/3/11       A100182      Preaward Examination of O&M Services Contract: Security Construction Services,
                          Inc., Solicitation Number GS‑01P‑10‑BW‑C‑0026

8/4/11       A110133      Preaward Examination of Architect Engineer Proposal: Arup USA, Inc.,
                          Subcontractor to Smith‑Miller & Hawkinson Architects, LLP, Solicitation Number
                          GS‑11P‑10‑MKC‑0050

8/10/11      A110102      Examination of a Claim: W.G. Yates & Sons Construction Company, Contract Number
                          GS‑07P‑05‑URC‑5007




OCTOBER 1, 2013 – MARCH 31, 2014                                                                              59
                    APPENDIX III – OIG REPORTS OVER 12 MONTHS OLD, FINAL AGENCY ACTION PENDING




DATE OF    REPORT
REPORT     NUMBER       TITLE

8/15/11    A110180      Examination of Architect and Engineering Services Contract: RTKL Associates, Inc.,
                        Contract Number GS‑11P‑11‑MK‑C‑0045

8/19/11    A110111      Preaward Examination of Multiple Award Schedule Contract Extension Options
                        Number 3, 5, and 6: Thermo Electron North America, LLC, Contract Number
                        GS‑24F‑0026L

8/22/11    A090196      Review of Construction Management Services Contract: Bovis Lend Lease LMB, Inc.,
                        Contract Number GS‑02P‑04‑DTC‑0028

8/25/11    A110136      Preaward Examination of Multiple Award Schedule Contract Extension: Konica Minolta
                        Business Solutions U.S.A., Inc., Contract Number GS‑25F‑0030M

9/8/11     A110021      Examination of a Claim: Myrex Industries, Subcontractor to Caddell Construction
                        Company, Incorporated, Contract Number GS‑07P‑05‑UEC‑3003

9/9/11     A110067      Preaward Examination of Multiple Award Schedule Contract Extension: Clifton
                        Gunderson, LLP, Contract Number GS‑23F‑0135L

9/12/11    A110146      Examination of Conversion Proposal: White Construction Company, Contract Number
                        GS‑07P‑06‑UEC‑0059

9/14/11    A110122      Preaward Examination of Multiple Award Schedule Contract: Agilent Technologies,
                        Incorporated, Contract Number GS‑26F‑5944A

9/15/11    A110174      Postaward Examination of Multiple Award Schedule for the Period March 5, 2010, to
                        July 31, 2011: Protective Products Enterprises, Contract Number GS‑07F‑9029D

10/13/11   A100210      Preaward Examination of Multiple Award Schedule Contract Extension:
                        Labat‑Anderson, Inc., Contract Number GS‑25F‑0028L

11/15/11   A110197      Preaward Examination of Multiple Award Schedule Contract Extension: KDH Defense
                        Systems, Inc., Contract Number GS‑07F‑0249T

12/7/11    A110176      Preaward Examination of Multiple Award Schedule Contract Extension: Fontaine
                        Trailer Company, Incorporated, Contract Number GS‑30F‑0018T

12/19/11   A110153      Examination of a Claim: Letsos Company, Subcontractor to W.G. Yates & Sons
                        Construction Company, Contract Number GS‑07P‑05‑URC‑5007

12/22/11   A110178      Preaward Examination of Multiple Award Schedule Contract Extension: Sharp
                        Electronics Corporation, Contract Number GS‑25F‑0037M

12/27/11   A110191      Preaward Examination of Multiple Award Schedule Contract Extension: Paradigm
                        Technologies, Inc., Contract Number GS‑23F‑0023T

12/27/11   A110198      Preaward Examination of Multiple Award Schedule Contract Extension: Scott
                        Technologies Incorporated, Contract Number GS‑07F‑9563G

1/19/12    A110152      Preaward Examination of Multiple Award Schedule Contract Extension: Technology
                        Associates International Corporation, Contract Number GS‑35F‑0474L

1/23/12    A110186      Preaward Examination of Multiple Award Schedule Contract Extension: BRSI, L.P.,
                        Contract Number GS‑23F‑0186L

1/31/12    A110177      Examination of a Claim: Way Engineering Ltd., Subcontractor to W.G. Yates & Sons
                        Construction Company, Contract Number GS‑07P‑05‑URC‑5007

2/3/12     A120065      Examination of a Claim: Bergelectric Corporation, Subcontractor to Caddell
                        Construction Company, Inc., Contract Number GS‑07P‑05‑UEC‑3003

2/8/12     A120075      Examination of a Claim: Enola Contracting Services, Inc., Contract Number
                        GS‑04P‑07‑EX‑C‑0167




60                        OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX III – OIG REPORTS OVER 12 MONTHS OLD, FINAL AGENCY ACTION PENDING




DATE OF      REPORT
REPORT       NUMBER       TITLE

2/22/12      A110089      Preaward Examination of Multiple Award Schedule Contract Extension: Quality
                          Software Services, Inc., Contract Number GS‑35F‑0308L

3/1/12       A110097      Preaward Examination of Multiple Award Schedule Contract Extension: Dell
                          Marketing, L.P., Contract Number GS‑35F‑4076D

3/2/12       A120021      Preaward Examination of Multiple Award Schedule Contract Extension: Presidio
                          Networked Solutions, Inc., Contract Number GS‑35F‑4554G

3/7/12       A110200      Preaward Examination of MAS contract Extension: Deco, Inc., Contract Number
                          GS‑07F‑0103M

3/27/12      A120074      Preaward Examination of Multiple Award Schedule Contract: Kimball International,
                          Inc., Contract Number GS‑29F‑0177G

3/28/12      A120070      Examination of a Claim: Cobb Mechanical, Subcontractor to Caddell Construction Co.,
                          Inc., Contract Number GS-07P-05-UEC-3003

4/10/12      A120090      Preaward Examination of Multiple Award Schedule Contract Extension: Mine Safety
                          Appliances Company, Contract Number GS‑07F‑9628G

4/12/12      A110143      Preaward Examination of Multiple Award Schedule Contract Extension: The J.
                          Diamond Group, Inc., Contract Number GS‑07F‑0305L

4/23/12      A120086      Preaward Examination of Multiple Award Schedule Contract Extension: The Analysis
                          Corporation, Contract Number GS‑35F‑0344L

5/1/12       A110213      Preaward Examination of Multiple Award Schedule Contract Extension: Miami Air
                          International, Incorporated, Contract Number GS‑33F‑0016T

5/9/12       A120069      Examination of a Claim: Cleveland Construction, Inc., Subcontractor to Caddell
                          Construction Co., Inc., Contract Number GS‑07P‑05‑UEC‑3003

5/31/12      A120059      Preaward Examination of Multiple Award Schedule Contract Extension: The MIL
                          Corporation, Contract Number GS‑35F‑4670G

6/29/12      A110169      Postaward Examination of Multiple Award Schedule Contract for the Period October
                          1, 2006, through March 31, 2011: Oce North America, Inc., Contract Number
                          GS‑25F‑0060M

7/5/12       A110166      Preaward Examination of Multiple Award Schedule Contract Extension: Pitney Bowes,
                          Inc., Contract Number GS‑25F‑0010M

7/6/12       A120126      Preaward Examination of Multiple Award Schedule Contract: Hamilton Products
                          Group, Inc., Solicitation Number 3QSA‑JB‑100001‑B

7/17/12      A120136      Examination of a Claim: Lenex Steel Company, Contract Number
                          GS‑05P‑02‑GB‑C‑0089

8/9/12       A120063      Examination of a Claim: Caddell Construction Co., Inc., Contract Number
                          GS‑07P‑05‑UEC‑3003

8/9/12       A120084      Preaward Examination of Multiple Award Schedule Contract Extension: Raytheon
                          Company, Contract Number GS‑35F‑4097G

8/15/12      A110209      Preaward Audit of Multiple Award Schedule Contract Extension: Propper International
                          Sales, Inc., Contract Number GS‑07F‑0228M

8/17/12      A120119      Preaward Examination of Multiple Award Schedule Contract Extension: Spectrum
                          Systems, Inc., Contract Number GS‑35F‑5192G

8/21/12      A120083      Examination of a Change Order Proposal: M.A. Mortenson Company, Contract
                          Number GS‑08P‑09‑JFC‑0010




OCTOBER 1, 2013 – MARCH 31, 2014                                                                            61
                    APPENDIX III – OIG REPORTS OVER 12 MONTHS OLD, FINAL AGENCY ACTION PENDING




DATE OF    REPORT
REPORT     NUMBER       TITLE

8/23/12    A120061      Preaward Examination of Multiple Award Schedule Contract Extension: Schneider
                        Electric USA, Inc., Contract Number GS‑07F‑9462G

9/12/12    A120103      Preaward Examination of Multiple Award Schedule Contract Extension: ManTech
                        Advanced Systems International, Inc., Contract Number GS‑35F‑4660G

9/18/12    A120121      Examination of a Termination Settlement Proposal: Alutiiq International Solutions,
                        LLC, Contract Number GS‑08P‑08‑JF‑C‑0005

9/20/12    A120141      Examination of a Claim: Turner Construction Company, Contract Number
                        GS‑07P‑11‑HHC‑0003

10/16/12   A120071      Preaward Examination of Multiple Award Schedule Contract Extension: ICF Z‑Tech,
                        Inc., Contract Number GS‑35F‑0102M

10/17/12   A120148      Examination of Change Order Proposal: Siemens Industries, Inc., Subcontractor to
                        Whiting‑Turner/Walsh JV, Contract Number GS‑11P‑10‑MKC‑0025

11/2/12    A120066      Preaward Examination of Multiple Award Schedule Contract Extension: Life Fitness,
                        Inc., Contract Number GS‑07F‑9380G

11/5/12    A110138      Preaward Audit of Multiple Award Schedule Contract Extension: United Parcel
                        Service, Inc., Contract Number GS‑23F‑0282L

11/14/12   A120110      Preaward Audit of Multiple Award Schedule Contract Extension: BlueScope
                        Construction, Inc., Contract Number GS‑07F‑9665G

11/20/12   A120158      Examination of a Change Order Proposal: Turner Construction Company, Contract
                        Number GS‑07P‑11‑HH‑C‑0003

11/21/12   A120155      Preaward Examination of Multiple Award Schedule Contract Extension: Avion
                        Solutions, Inc., Contract Number GS‑00F‑0082N

12/6/12    A110147      Preaward Audit of Multiple Award Schedule Contract Extension: Xerox Corporation,
                        Contract Number GS‑25F‑0062L

12/6/12    A120078      Preaward Examination of Multiple Award Schedule Contract Extension: Computer
                        Sciences Corporation, Contract Number GS‑35F‑4381G

12/20/12   A120107      Preaward Examination of Multiple Award Schedule Contract: Hewlett‑Packard
                        Company, Solicitation Number FCIS‑JB‑980001‑B

1/15/13    A120179      Examination of a Claim: Braithwaite Construction Company, LLC, Contract Number
                        GS‑07P‑99‑HHD‑0100

1/18/13    A120093      Preaward Examination of Multiple Award Schedule Contract Extension: Reed Elsevier,
                        Inc., Contract Number GS‑02F‑0048M

1/24/13    A120150      Preaward Examination of Multiple Award Schedule Contract Extension: Grant
                        Thornton, LLP, Contract Number GS‑23F‑8196H

1/30/13    A120165      Examination of a Conversion Proposal: Skanska USA Building, Inc., Contract Number
                        GS‑04P‑09‑EX‑C‑0078

2/8/13     A120177      Preaward Examination of Multiple Award Schedule Contract Extension: ASI
                        Government, Inc., Contract Number GS‑10F‑0308N

2/21/13    A110181      Preaward Examination of Multiple Award Schedule Contract Extension: Softchoice
                        Corporation, Contract Number GS‑35F‑0196M

2/28/13    A120095      Preaward Examination of Multiple Award Schedule Contract Extension: Military
                        Personnel Services Corporation, Contract Number GS‑10F‑0234M

3/1/13     A120098      Preaward Examination of Multiple Award Schedule Contract Extension: Dynamics
                        Research Corporation, Contract Number GS‑35F‑4775G




62                        OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX III – OIG REPORTS OVER 12 MONTHS OLD, FINAL AGENCY ACTION PENDING




DATE OF       REPORT
REPORT        NUMBER      TITLE

3/5/13        A120178     Preaward Examination of Multiple Award Schedule Contract Extension: VT Aepco,
                          Inc., Contract Number GS‑23F‑0191N

3/14/13       A130036     Preaward Examination of Multiple Award Schedule Contract Extension: The Centech
                          Group, Inc., Contract Number GS‑35F‑5440H

3/19/13       A100161     Limited Scope Postaward Examination of Multiple Award Schedule Contract:
                          Smartronix, Inc., Contract Number GS‑35F‑0362J

3/20/13       A120147     Preaward Examination of Multiple Award Schedule Contract Extension: Harris
                          Corporation, RF Communications Division, Contract Number GS‑35F‑0163N

3/21/13       A120109     Preaward Examination of Multiple Award Schedule Contract Extension: ICF Macro,
                          Inc., Contract Number GS‑23F‑9777H

3/28/13       A120142     Preaward Examination of Multiple Award Schedule Contract Extension: Science
                          Applications International Corporation, Contract Number GS‑23F‑8006H

3/28/13       A130034     Examination of Claim: Caddell Construction Co., Inc., Contract Number
                          GS‑05P‑02‑GBC‑0089

3/29/13       A120127     Preaward Examination of Multiple Award Schedule Contract Extension: General
                          Dynamics Information Technology, Inc., Contract Number GS‑23F‑8049H


DATE OF       REPORT                                                                            PROJECTED FINAL
REPORT        NUMBER      TITLE                                                                     ACTION DATE
INTERNAL AUDITS

3/31/11       A110072     Review of the Federal Acquisition Service's National Customer              05/15/14
                          Service Center

8/19/11       A090172     Recovery Act Report - GT "Mickey" Leland Federal Building                  06/15/14
                          Renovation Project: Construction Contract Audit of PBS's Major
                          Construction and Modernization Projects Funded by The American
                          Recovery and Reinvestment Act of 2009

9/30/11       A110095     FY 2011 Office of Inspector General Information Technology Security        05/15/14
                          Audit of the SmartPay - Citibank System

9/30/11       A110096     FY 2011 Office of Inspector General Information Technology Security        07/15/14
                          Audit of the AT&T Operational Support System

11/10/11      A110103     Audit of the General Services Administration's Fiscal Year 2011            03/31/14
                          Financial Statements

5/30/12       A110100     Audit of Management Controls Within the Network Services Division          03/15/14
                          Pacific Rim Region, Federal Acquisition Service

10/24/12      A120174     OIG Alert Report - Limited Scope Audit of Invalid Obligations and          05/15/14
                          Contingency Funding for Recovery Act Projects

11/8/12       A120101     Audit of the General Services Administration's Fiscal Year 2012            08/30/14
                          Financial Statements

12/17/12      A110217     Follow-up Audit of GSA's Acquisition of Services for the                    11/15/14
                          International Trade Center at the Ronald Reagan Building: PBS's
                          Oversight of Contract Requirements

3/27/13       A090172     Recovery Act Report - Funding for Modifications 50 UN Plaza                04/30/14
                          Renovation Project Audit of PBS's Major Construction and
                          Modernization Projects Funded by the American Recovery and
                          Reinvestment Act of 2009




OCTOBER 1, 2013 – MARCH 31, 2014                                                                            63
                                     APPENDIX IV – OIG REPORTS WITHOUT MANAGEMENT DECISION




Appendix IV –
OIG Reports Without
Management Decision
Section 5(a)(10) of the Inspector General Act, as amended, requires a summary of
each report issued before the commencement of the reporting period for which no
management decision has been made by the end of the reporting period. GSA has a
system in place to track reports and management decisions. Its purpose is to ensure
that recommendations and corrective actions indicated by the OIG and agreed to by
management are addressed as efficiently and expeditiously as possible. There are nine
OIG reports that meet this requirement in this reporting period; five have been resolved
since March 31, 2014.


Reports that were six months old as of March 31, 2014 and remain unresolved.


Preaward Review of Multiple Award Schedule Contract Extension: BlueScope
Construction, Inc., Contract Number GS-07F-9665G, dated November 14, 2012

We performed this audit to determine whether BlueScope Construction, Inc.
(BlueScope) submitted current, accurate, and complete CSP information; maintained
sales monitoring and billing systems that ensure proper administration of the price
reduction provisions and billing terms of the contract; and adequately accumulated and
reported schedule sales for IFF payment purposes. We concluded that BlueScope’s
GSA and non-GSA pricing methodologies differ, and each BlueScope sale is so unique
that these sales cannot be priced using Multiple Award Schedule processes. Ordering
procedures under the contract are inconsistent with the Federal Acquisition Regulation,
and GSA sales are inconsistent with the General Services Administration Acquisition
Manual’s direction for procuring construction as a commercial item. The contract does
not afford effective price reduction protection due to inadequate Maximum Order
Threshold levels, insufficient BlueScope monitoring, and an invalid price/discount
relationship with the basis of award customer.

After multiple meetings to resolve the contracting officer’s (CO) disagreement with our
findings, we are going to escalate the issues to agency management.




64                       OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX IV – OIG REPORTS WITHOUT MANAGEMENT DECISION




Preaward Examination of Multiple Award Schedule Contract Extension: Ernst &
Young, LLP, Contract Number GS-23F-8152H, dated May 8, 2013

Our objectives in this audit were to determine whether Ernst & Young, LLP (E&Y)
submitted CSP information that is current, accurate, and complete; maintained
sales monitoring and billing systems that ensure proper administration of the price
reduction provisions and billing terms of the contract; adequately accumulated and
reported schedule sales for IFF payment purposes; assigned employees qualified for
their billable positions to work on task orders placed under the GSA schedule; and
adequately segregated and accumulated labor hours, material costs, and other direct
costs on time and material task orders.

We could not complete our objectives due to multiple refusals from E&Y to provide full
and complete access to records and data, as contractually required. Without complete
access to its commercial sales we could not determine whether prices and discounts
offered to commercial customers, who account for over 99 percent of E&Y’s revenue,
are accurately disclosed. Therefore, we could not complete the audit work and
recommended the contracting officer should not award the 5-year option.

Despite E&Y’s refusal to provide the supporting data to substantiate these disclosures,
the CO awarded the option citing the determination that E&Y’s “…prices offered to the
Government are fair and reasonable as they are less than what is charged to its best
customers.” We escalated the issue to agency management.


Preaward Examination of Multiple Award Schedule Contract Extension: Danya
International, Incorporated, Contract Number GS-10F-0484N, dated May 31, 2013

We performed this audit to determine whether Danya International, Incorporated
(Danya) submitted CSP information that is current, accurate, and complete; maintained
sales monitoring and billing systems that ensure proper administration of the price
reduction provisions and billing terms of the contract; adequately accumulated and
reported schedule sales for IFF payment purposes; assigned employees qualified for
their billable positions to work on task orders placed under the GSA schedule; and
adequately segregated and accumulated labor hours, material costs, and other direct
costs on time and material task orders.

Danya’s CSP is current but not complete or accurate because the commercial mapping
submitted in support of its proposed GSA rates was inadequate. Therefore, Danya
submitted cost buildup data in support of its GSA schedule rates. The rates in Danya’s
cost buildup proposal are overstated and require adjustment because the contractor:
(1) did not include frequently used lower cost consultant and subcontractor labor
when computing its proposed labor rates; and (2) applied overstated fringe, overhead,
and general and administrative rates. In addition, Danya’s Price Reductions clause is
ineffective because the company does not have significant non-GSA sales comparable
to GSA labor categories.

After multiple meetings to resolve the CO’s disagreement with our findings, we are
escalating the issues to agency management.




OCTOBER 1, 2013 – MARCH 31, 2014                                                     65
                                   APPENDIX IV – OIG REPORTS WITHOUT MANAGEMENT DECISION




Preaward Audit of Multiple Award Schedule Contract Extension: Technical
Communities, Inc. dba Testmart, Contract Number GS-24F-0066M, dated
July 16, 2013

We performed this audit to determine whether Testmart disclosed and submitted
current, accurate, and complete CSP information; maintained sales monitoring and
billing systems that ensure proper administration of the price reduction and billing
provisions of the GSA contract; and adequately accumulated and reported GSA
schedule sales for IFF payment purposes. We concluded that Testmart’s contract
should not be extended until the company provides CSP information that is current,
accurate, and complete. Testmart’s current and proposed basis of award customer
does not provide adequate protection to the government. We found that Testmart
did not properly administer its GSA contract. The administrative issues included
overbillings, non-compliant products, and the omission of the contract number on
GSA invoices. However, Testmart adequately accumulates and reports schedule
sales for IFF purposes.

After multiple meetings to resolve the CO’s disagreement with our findings, we are
escalating the issues to agency management.


Reports that were six months old as of March 31, 2014, but have since been resolved.


Preaward Examination of Multiple Award Schedule Contract Extension:
Spectrum Systems, Inc., Contract Number GS-35F-5192G, dated August 17, 2012

Resolved on April 1, 2014.


Preaward Examination of Multiple Award Schedule Contract Extension: Grant
Thornton, LLP, Contract Number GS-23F-8196H, dated January 24, 2013

Resolved on April 2, 2014.


Preaward Examination of Multiple Award Schedule Contract Extension: The
Centech Group, Contract Number GS-35F-5440H, dated March 14, 2013

Resolved on April 2, 2014.


Preaward Audit of Multiple Award Schedule Contract Extension: Kforce
Government Solutions, Inc., Contract Number GS-23F-9837H, dated April 17, 2013

Resolved on April 8, 2014.


Improper Management Intervention in Multiple Award Schedule Contracts,
Federal Supply Schedule 70 − Information Technology Contracts, Federal
Acquisition Service, dated June 4, 2013

Resolved on April 21, 2014.




66                      OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
APPENDIX V – PEER REVIEW RESULTS




Appendix V –
Peer Review Results
The Dodd-Frank Wall Street Reform Act requires each Inspector General to submit an
appendix containing the results of any peer review conducted by another OIG during
the reporting period or, if no peer review was conducted, a statement identifying the
date of the last peer review conducted; a list of any outstanding recommendations
from any peer review conducted by another OIG that have not been fully implemented;
the status of the recommendation, and an explanation why the recommendation is
not complete; and a list of any peer reviews conducted by the OIG of another Office
of Inspector General during the reporting period, including a list of any outstanding
recommendations made from any previous peer review that have not been
fully implemented.

In FY 2012, the Office of Audits underwent a peer review by the Department of Justice.
On December 20, 2012, the GSA OIG received a peer review rating of “pass.” The peer
review team found that the GSA OIG’s system of quality control is suitably designed
and complied with to provide reasonable assurance of performing and reporting
in conformity with applicable standards in all material respects. No outstanding
recommendations exist from any previous peer review conducted by another OIG.

The Office of Audits did not conduct any peer reviews of another OIG during this
reporting period. As such, no outstanding recommendations exist from previous peer
reviews that have not been fully implemented.

On July 26, 2013, the Small Business Administration OIG stated that the system
of internal safeguards and management procedures for the GSA OIG Office of
Investigations was in full compliance with the standards promulgated for investigations
by the Attorney General Guidelines and the CIGIE.




OCTOBER 1, 2013 – MARCH 31, 2014                                                     67
                                                                     APPENDIX VI – REPORTING REQUIREMENTS




Appendix VI –
Reporting Requirements
The table below cross-references the reporting requirements prescribed by the Inspector
General Act of 1978, as amended, to the specific pages where they are addressed. The
information requested by the Congress in Senate Report No. 96-829 relative to the 1980
Supplemental Appropriations and Rescission Bill, the National Defense Authorization Act,
and the Dodd-Frank Wall Street Reform Act are also cross-referenced to the appropriate
page of the report.

REQUIREMENT                                                                                           PAGE

INSPECTOR GENERAL ACT

Section 4(a)(2) –	 Review of Legislation and Regulations                                                47
Section 5(a)(1) –	 Significant Problems, Abuses, and Deficiencies                                    14–30
Section 5(a)(2) –	 Recommendations with Respect to Significant Problems, Abuses, and Deficiencies    14–30
Section 5(a)(3) –	 Prior Recommendations Not Yet Implemented                                            51
Section 5(a)(4) –	 Matters Referred to Prosecutive Authorities                                          11
Sections 5(a)(5) and 6(b)(2) – Summary of Instances Where Information Was Refused                     none
Section 5(a)(6) –	 List of OIG Reports                                                                  55
Section 5(a)(7) –	 Summary of Each Particularly Significant Report                                   14–30
Section 5(a)(8) –	 Statistical Tables on Management Decisions on Questioned Costs                       10
Section 5(a)(9) –	Statistical Tables on Management Decisions on Recommendations That Funds Be Put
                                                                                                        10
                    to Better Use
Section 5(a)(10) –	Summary of OIG Reports Issued Before the Commencement of the                       64
                    Reporting Period for Which No Management Decision Has Been Made
Section 5(a)(11) –	Description and Explanation for Any Significant Revised Management Decision        none
Section 5(a)(12) –	Information on Any Significant Management Decisions                               none
                    with Which the Inspector General Disagrees
SENATE REPORT NO. 96-829

Resolution of Audits                                                                                    11
NATIONAL DEFENSE AUTHORIZATION ACTS

Public Law 104-106, 5 U.S.C. app. 3, § 5 note                                                           57
Public Law 110-181                                                                                      30
DODD-FRANK WALL STREET REFORM AND CONSUMER PROTECTION ACT

Peer Review Results                                                                                     67




68                              OFFICE OF INSPECTOR GENERAL | SEMIANNUAL REPORT TO THE CONGRESS
Make
like
it’s your
money!
It is.
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your

Inspector General’s Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write:	 GSA, IG, Hotline Officer
	          Washington, DC 20405

or access the Web:
http://www.gsaig.gov/index.cfm/hotline/

Office of Inspector General
U.S. General Services Administration
Office of Inspector General
U.S. General Services Administration
1800 F Street, NW
Washington, DC 20405
http://www.gsaig.gov
